<html>
<title> - EDUCATION REFORMS: EXPLORING TEACHER QUALITY INITIATIVES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





        EDUCATION REFORMS: EXPLORING TEACHER QUALITY INITIATIVES

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JULY 27, 2011

                               __________

                           Serial No. 112-35

                               __________

  Printed for the use of the Committee on Education and the Workforce





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov





                  U.S. GOVERNMENT PRINTING OFFICE
67-445 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Dale E. Kildee, Michigan
Judy Biggert, Illinois               Donald M. Payne, New Jersey
Todd Russell Platts, Pennsylvania    Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Bob Goodlatte, Virginia              Lynn C. Woolsey, California
Duncan Hunter, California            Ruben Hinojosa, Texas
David P. Roe, Tennessee              Carolyn McCarthy, New York
Glenn Thompson, Pennsylvania         John F. Tierney, Massachusetts
Tim Walberg, Michigan                Dennis J. Kucinich, Ohio
Scott DesJarlais, Tennessee          David Wu, Oregon
Richard L. Hanna, New York           Rush D. Holt, New Jersey
Todd Rokita, Indiana                 Susan A. Davis, California
Larry Bucshon, Indiana               Raul M. Grijalva, Arizona
Trey Gowdy, South Carolina           Timothy H. Bishop, New York
Lou Barletta, Pennsylvania           David Loebsack, Iowa
Kristi L. Noem, South Dakota         Mazie K. Hirono, Hawaii
Martha Roby, Alabama
Joseph J. Heck, Nevada
Dennis A. Ross, Florida
Mike Kelly, Pennsylvania

                      Barrett Karr, Staff Director
                 Jody Calemine, Minority Staff Director








                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 27, 2011....................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     3
    Miller, Hon. George, senior democratic member, Committee on 
      Education and the Workforce................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Boasberg, Thomas, superintendent, School District No. 1, City 
      and County of Denver.......................................    15
        Prepared statement of....................................    17
    Cicarella, David, president, New Haven Federation of Teachers    32
        Prepared statement of....................................    33
    Huffman, Hon. Kevin, Tennessee Commissioner of Education.....     9
        Prepared statement of....................................    11
    Walsh, Kate, president, National Council on Teacher Quality..    35
        Prepared statement of....................................    38

 
                      EDUCATION REFORMS: EXPLORING
                      TEACHER QUALITY INITIATIVES

                              ----------                              


                        Wednesday, July 27, 2011

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:03 a.m., in room 
2175, Rayburn House Office Building, Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Petri, Biggert, Foxx, 
Goodlatte, Roe, Thompson, DesJarlais, Hanna, Bucshon, Noem, 
Heck, Miller, Payne, Woolsey, Hinojosa, McCarthy, Tierney, 
Kucinich, Holt, Davis, Bishop, and Loebsack.
    Also Present: Senator Bennet, Representatives DeLauro and 
Polis.
    Staff Present: Jennifer Allen, Press Secretary; Katherine 
Bathgate, Press Assistant/New Media Coordinator; James 
Bergeron, Director of Education and Human Services Policy; 
Casey Buboltz, Coalitions and Member Services Coordinator; 
Heather Couri, Deputy Director of Education and Human Services 
Policy; Lindsay Fryer, Professional Staff Member; Daniela 
Garcia, Professional Staff Member; Barrett Karr, Staff 
Director; Rosemary Lahasky, Professional Staff Member; Brian 
Melnyk, Legislative Assistant; Krisann Pearce, General Counsel; 
Alex Sollberger, Communications Director; Linda Stevens, Chief 
Clerk/Assistant to the General Counsel; Alissa Strawcutter, 
Deputy Clerk; Brad Thomas, Senior Education Policy Advisor; 
Kate Ahlgren, Minority Investigative Counsel; Tylease Alli, 
Minority Clerk; Daniel Brown, Minority Junior Legislative 
Assistant; Jamie Fasteau, Minority Deputy Director of Education 
Policy (Counsel); Brian Levin, Minority New Media Press 
Assistant; Kara Marchione, Minority Senior Education Policy 
Advisor; Megan O'Reilly, Minority General Counsel; Julie 
Peller, Minority Deputy Staff Director; Helen Pajcic, Minority 
Education Policy Advisor; Melissa Salmanowitz, Minority 
Communications Director for Education; and Laura Schifter, 
Minority Senior Education and Disability Advisor.
    Chairman Kline. A quorum being present, the committee will 
come to order.
    Good morning. Welcome to our committee hearing on teacher 
quality initiatives. I would like to thank our witnesses for 
joining us today. Your time is valuable, and we appreciate the 
opportunity to get your perspective on how States, school 
districts, and the federal government can support and encourage 
more effective teachers.
    Current law recognizes a teacher as highly qualified if he 
or she holds a bachelor's degree, is certified to teach in the 
State, and has subject matter and teaching knowledge as 
determined by a State test. While these are certainly important 
criteria for educators, none of these factors alone can 
determine whether someone will be an effective teacher capable 
of motivating students and improving achievement levels.
    The best teachers are those who keep students engaged, 
challenged, and progressing in the classroom. As members of 
this committee have discussed, the challenges facing the 
nation's education system with superintendents, principals, and 
community leaders this year, we have heard impressive stories 
of the bright men and women who are entering the field of 
teaching and bringing a new wave of creativity and innovation 
to K-12 classrooms.
    A few months ago, a superintendent in my home State of 
Minnesota shared the story of a promising young teacher in his 
school. This teacher made great strides in improving the 
reading skills of male students by pioneering a groundbreaking 
program called Boys Like to Read. His popularity with students, 
combined with the success of the program, earned him 
recognition as the teacher of the year. This and other examples 
from around the country illustrate what research has long 
professed: the most important factor in student success is an 
effective teacher in the classroom.
    Unfortunately, instead of receiving a bonus or promotion or 
opportunity to help other teachers replicate his successful 
teaching style in their own classrooms, this teacher of the 
year was let go from his school, where he was recognized for 
his accomplishments and appreciated by his students, parents, 
and administrators alike, all because of a ``last in, first 
out'' tenure rule.
    Valuing credentials and tenure over student outcomes is 
completely unacceptable. Every student deserves to be inspired 
and challenged by an outstanding educator, not one who has lost 
interest in helping students succeed but is protected by rigid 
teacher tenure rules. As we work to reform the nation's 
education system, the committee will support State and local 
efforts to recruit and maintain more effective teachers in the 
nation's classrooms.
    In Tennessee, for example, State legislators have developed 
a new law that revamps the evaluation system. As a result, 
teachers must undergo a thorough annual evaluation process 
based on student achievement levels and subjective measures, 
such as classroom observations. Earlier this year, the State 
went one step further by tying the results of these evaluations 
to meaningful consequences: teachers whose evaluations reflect 
sub-par performance in the classroom can have their tenure 
revoked. We will hear more about this new system from one of 
our witnesses today.
    School districts in Indiana are now required to take 
student achievement gains into account when developing new 
teacher evaluations. To attract more effective teachers to the 
classroom, the State is developing more rigorous professional 
development programs and has created a Beginning Teacher 
Residency program that authorizes school administrators to 
assess a new teacher's performance and provide a personalized 
plan for professional development.
    Indiana has also undertaken an initiative long supported by 
Republicans in Congress: taking an educator's performance in 
the classroom into account when making salary determinations. 
For years, we have championed programs that support performance 
pay measures. One such program, the Teacher Incentive Fund, 
awards competitive grants to States, school districts, and 
public charter schools to design and implement performance pay 
compensation systems for teachers and principals who improve 
student achievement.
    We all know there can be no one-size-fits-all federal 
solution for ensuring an effective teacher is in every 
classroom. However, we can make sure our efforts in Washington, 
D.C., do not undermine teachers' and principals' ability to 
make decisions that best suit their students' unique needs. At 
the same time, there are many interesting developments 
happening at the State and local level that should be 
encouraged, and that is what we are here to explore today. I 
would like to thank our witnesses once again for joining us, 
and I look forward to learning more about what States and 
school districts are doing to recruit and maintain effective 
teachers in classrooms across the country.
    I will now recognize my distinguished colleague, George 
Miller, the Senior Democratic Member of the committee, for his 
opening remarks.
    [The statement of Mr. Kline follows:]

            Prepared Statement of Hon. John Kline, Chairman,
                Committee on Education and the Workforce

    Good morning, and welcome to our committee hearing on teacher 
quality initiatives. I'd like to thank our witnesses for joining us 
today. Your time is valuable and we appreciate the opportunity to get 
your perspective on how states, school districts, and the federal 
government can support and encourage more effective teachers.
    Current law recognizes a teacher as ``highly qualified'' if he or 
she holds a bachelor's degree, is certified or licensed to teach in the 
state, and has subject matter and teaching knowledge as determined by a 
state test. While these are certainly important criteria for our 
educators, none of these factors alone can determine whether someone 
will be an effective teacher capable of motivating students and 
improving achievement levels.
    The best teachers are those who keep students engaged, challenged, 
and progressing in the classroom. As members of this committee have 
discussed the challenges facing the nation's education system with 
superintendents, principals, and community leaders this year, we have 
heard impressive stories of the bright men and women who are entering 
the field of teaching and bringing a new wave of creativity and 
innovation to K-12 classrooms.
    A few months ago, a superintendent in my home state of Minnesota 
shared the story of a promising young teacher in his school. This 
teacher made great strides in improving the reading skills of male 
students by pioneering a groundbreaking program called Boys Like to 
Read. His popularity with students combined with the success of the 
program earned him recognition as the ``Teacher of the Year.'' This and 
other examples from around the country illustrate what research has 
long professed: the most important factor in student success is an 
effective teacher in the classroom.
    Unfortunately, instead of receiving a bonus or promotion or 
opportunity to help other teachers replicate his successful teaching 
style in their own classrooms, this Teacher of the Year was let go from 
his school--where he was recognized for his accomplishments and 
appreciated by students, parents, and administrators alike--all because 
of misguided ``last in first out'' tenure rules.
    Valuing credentials and tenure over student outcomes is completely 
unacceptable. Every student deserves to be inspired and challenged by 
an outstanding educator, not one who has lost interest in helping 
students succeed, but is protected by rigid teacher tenure rules. As we 
work to reform the nation's education system, the committee will 
support state and local efforts to recruit and maintain more effective 
teachers in the nation's classrooms.
    In Tennessee, for example, state legislators have developed a new 
law that revamps the evaluation system. As a result, teachers must 
undergo a thorough annual evaluation process based on student 
achievement levels and subjective measures, such as classroom 
observations. Earlier this year, the state went one step further by 
tying the results of these evaluations to meaningful consequences: 
teachers whose evaluations reflect subpar performance in the classroom 
can have their tenure revoked. We will hear more about this new system 
from one of our witnesses today.
    School districts in Indiana are now required to take student 
achievement gains into account when developing new teacher evaluations. 
To attract more effective teachers to the classroom, the state is 
developing more rigorous professional development programs, and has 
created a Beginning Teacher Residency program that authorizes school 
administrators to assess a new teacher's performance and provide a 
personalized plan for professional development.
    Indiana has also undertaken an initiative long supported by 
Republicans in Congress: taking an educator's performance in the 
classroom into account when making salary determinations. For years, we 
have championed programs that support performance pay measures. One 
such program, the Teacher Incentive Fund, awards competitive grants to 
states, school districts, and public charter schools to design and 
implement performance pay compensation systems for teachers and 
principals who improve student achievement.
    We all know there can be no one-size-fits-all federal solution for 
ensuring an effective teacher is in every classroom. However, we can 
make sure our efforts in Washington, D.C. do not undermine teachers' 
and principals' ability to make decisions that best suit their 
students' unique needs. At the same time, there are many interesting 
developments happening at the state and local level that should be 
encouraged, and that's what we're here to explore today. I'd like to 
thank our witnesses once again for joining us, and I look forward to 
learning more about what states and school districts are doing to 
recruit and maintain effective teachers in classrooms across the 
country.
    I will now recognize my distinguished colleague George Miller, the 
senior Democratic member of the committee, for his opening remarks.
                                 ______
                                 
    Mr. Miller. Thank you very much, Mr. Chairman. Thank you 
for holding this hearing.
    I note with a smile when you say that the rather minimal 
requirements we have for a highly qualified teacher is the idea 
of subject matter competency, with a B.A. degree and 
certification from the State; and I reflect back how hard-
fought that was to get that in the law in No Child Left Behind.
    But then I remember back even prior to that when I offered 
an amendment on the floor of the Congress saying that I thought 
we ought to have teachers in the classroom who have subject 
matter competency. I lost that amendment 434 to 1.
    So we have come a long way, and I think the conversation 
today will suggest how far we have come. But there is a lot of 
work to do here as we think about the teaching profession and 
what we owe our children and how we can improve it.
    And we have spent a considerable amount of time in this 
committee looking into how a federal policy can best support 
great teachers in this country. It is an effort that is worth 
our time, because I know we will hear time and again today that 
teachers are the single most important factor in a child's 
education outside of the home.
    Student success is nearly entirely reliant on the quality 
and commitment of teachers at his or her classroom. And for 
poor and minority students, access to good teachers is an issue 
of equity. Poor and minority students are taught by novice and 
out-of-field teachers at a much higher rate than their more 
affluent peers. The very students who could benefit most from 
the very best teachers are least likely to get them. Our 
federal education policy should prioritize access to high-
quality teachers for all students, including better 
measurements of identifying high-quality teachers.
    It is a productive exercise to talk about how we can 
improve and modernize the teaching profession, because these 
conversations will hopefully lead to better policies and 
improve student success. What is not productive are the attacks 
that we have seen on teachers across the country from 
Republican governors. In trying to strip teachers of all their 
collective bargaining rights except for negotiations over pay, 
these governors are showing how out of touch they are with 
today's teaching profession, school reform in America, and, 
frankly, the American workplace.
    All over America, school districts are changing the rules 
from the mere platitudes that teachers are the most important 
influence outside the home in the education of our children to 
really making that possible. School districts in unionized 
areas, where some said it could never happen, are soliciting--
imagine that--they are soliciting teachers' views on how we 
might improve the learning and teaching environment. And it 
will continue, because it reflects what great teachers view as 
the modern workplace, where results and outcomes matter to 
students, parents, teachers, and the community.
    Any efforts to help teachers must be done with those 
teachers, not to them. It is time we treated the teaching 
profession like any other modern workplace, with support, 
resources, real professional development, and real rewards.
    We now have to create a system where we as a nation are 
participants in the reconstitution of our schools. This is not 
to be done by experts. This will not be done by researchers or 
corporate executives. This reconstitution will have to be done 
by communities and by teachers who know what is best for our 
schools and our communities, for the children and their 
parents.
    The real change will require buy-in from all levels of the 
community. A great example of parents taking charge and the 
community being involved is the parent trigger law in 
California. In Los Angeles, the community decided that their 
schools simply weren't good enough for their children, the 
parents in that attendance area. These students deserved better 
and deserved attention from the district. The parents came 
together and decided to demand change in the schools. The law 
finally gave them the means by which to act.
    Buy-in isn't just nodding your head and agreeing that 
something needs to happen. Buy-in is helping to be part of the 
improvement. It means superintendents and principals that can 
look toward the future. It means moving the teaching profession 
into the 21st century and finally giving teachers a modern 
workplace and rewarding success, encouraging growth, raising 
expectations, and measuring outcomes.
    It is simply not enough for a small few of our students to 
have access to the best schools and the best teachers. If we 
want to have the best and the brightest in the world, it is 
time we demand the best.
    I look forward to hearing from our witnesses. Thank you 
again for this hearing and thank you to our witnesses for being 
here.
    [The statement of Mr. Miller follows:]

  Prepared Statement of Hon. George Miller, Senior Democratic Member, 
                Committee on Education and the Workforce

    Thank you Mr. Chairman and good morning. The subject of today's 
hearing is nothing new to this committee.
    I've focused my career in Washington on helping teachers and 
improving the teaching profession. In fact, I once proposed an 
amendment that would've required teachers in the classroom to have 
subject matter competency in the areas where they were teaching. I lost 
that vote 434-1.
    Thankfully, this Congress has changed quite a bit since then and 
there's now a growing consensus that we need to provide teachers as 
much support as we can.
    We've spent considerable time looking into how our federal policy 
can best support great teachers in this country.
    It's an effort that is worth our time because as I know we'll hear 
time and time again today, the teacher is the single most important 
factor in a child's education today.
    Student success is nearly entirely reliant on the quality and 
commitment of the teacher in his or her classroom.
    And for poor and minority students, access to good teachers is an 
issue of equity. Poor and minority students are taught by novice and 
out-of-field teachers at much higher rates than their more affluent 
peers.
    The very students who could benefit the most from the very best 
teachers are the least likely to get them. Our federal education policy 
should prioritize access to high quality teachers for all students, 
including better measures of identifying high quality teachers.
    It's a productive exercise to talk about how we can improve and 
modernize the teaching profession because these conversations will 
hopefully lead to better policies and improve student success.
    What is not productive are the attacks we've seen on teachers 
across the country from Republican governors.
    In trying to strip teachers of all collective bargaining rights 
except for negotiations over pay, these governors are showing how out 
of touch they are with today's teaching profession, school reform in 
America, and, frankly, the American workplace.
    All over America school districts are changing the rules from the 
mere platitudes that teachers are the most important influence outside 
the home in the education of our children to really making that 
possible.
    School districts, in unionized areas where some said it could never 
happen, are soliciting teacher's views to improve both the learning and 
teaching environment.
    And it will continue because it reflects what great teachers view 
as the modern workplace where results and outcomes matter to students, 
parents, teachers and the community.
    Any efforts to help teachers must be done WITH teachers not to 
them. It's time we treated the teaching profession like any other 
modern workplace, with support, resources, real professional 
development and real rewards.
    We now have to create a system where we as nation participate in 
the reconstitution of our schools. This will not be done by experts. 
This will not be done by researchers or corporate executives. This will 
have to be done by communities and by teachers who know what's best for 
our schools.
    Real change will require buy in from all levels of communities. A 
great example of parents taking charge and the community being involved 
is the parent trigger law in California. In Los Angeles, the community 
decided that their schools simply weren't good enough for children. 
Their students deserved better and deserved attention from the 
district. The parents came together and decided to demand change in the 
schools. The law finally gave them the means in which to act.
    Buy in isn't just nodding your head and agreeing something NEEDS to 
happen. Buy in has to be helping be a part of the improvement. It means 
superintendents and principals that can look toward the future.
    It means treating moving the teaching profession in to the 21st 
century by finally giving teachers a modern workplace, rewarding 
success, encouraging growth and raising expectations.
    It's simply not enough for a small few of our students to have 
access to the best schools and the best teachers. If we want to have 
the best and the brightest in the world, it's time we demand the best. 
I look forward to hearing from our witnesses. Thank you for being here 
today.
                                 ______
                                 
    Chairman Kline. I thank the gentleman.
    Pursuant to committee rule 7(c), all members will be 
permitted to submit written statements to be included in the 
permanent hearing record. Without objection, the hearing record 
will remain open for 14 days to allow questions for the record, 
statements, and extraneous material referenced during the 
hearing to be submitted for the official hearing record.
    I will now move to introducing our distinguished witnesses. 
Today, I get a lot of help in that effort. We are pleased to 
have some folks here on the committee----
    And, by the way, as you probably have surmised, there are 
some conference meetings under way discussing an issue which 
seems to be sort of prevalent out there. So my expectation is 
that members from both sides will be coming in during the 
course of this hearing.
    To introduce our first witness, I will turn to my colleague 
from Tennessee, Dr. Roe.
    Mr. Roe. The reason I am here is I have overdosed on 
conferences. I couldn't take any more conferences.
    Thank all the committee members for being here.
    On behalf of myself and Dr. DesJarlais, I would like to 
welcome Kevin Huffman, the commissioner of Tennessee's 
Department of Education.
    Before being appointed in April by Governor Bill Haslam, 
Mr. Huffman spent nearly two decades working with public 
education systems as a teacher, lawyer, and a nonprofit 
executive and nonprofit board member. Commissioner Huffman 
began his education career as a first and second grade 
bilingual teacher in the Houston Independent School District, 
teaching students in English and Spanish. He was a member of 
his school's elected, shared, decision-making committee and 
trained new teachers as a faculty advisor and school director 
at Teach for America's summer training institutes. Mr. Huffman 
joined the senior management of Teach for America in 2000, 
serving as the general counsel, the senior vice president of 
growth strategy and development, and the executive vice 
president of public affairs during more than a decade with the 
organization.
    Commissioner Huffman, I look forward to your testimony 
regarding exciting work in education taking place in Tennessee, 
and welcome.
    Chairman Kline. I will add my welcome.
    And, moving on, I am pleased to welcome Senator Bennet from 
Colorado to make the introduction of our second witness.
    Senator Bennet. Thank you, Mr. Chairman.
    I would like to thank you and the ranking member for 
holding this important hearing and having me here today and 
giving me the privilege of introducing my friend, Tom Boasberg, 
who was appointed superintendent of the Denver Public Schools 
in January of 2009.
    Tom Boasberg has led the district's efforts to accelerate 
its progress in student achievement and better serve the 
families of Denver. Over the past 2 years, the district has 
posted record enrollment increases, dramatically expanded the 
number of preschool and full-day kindergarten slots, cut the 
number of lowest-performing schools in half, and continued the 
student achievement gains that began with the creation of the 
Denver Plan in 2005.
    In 2010, Denver Public Schools graduated about 13 percent 
more seniors than the previous year. The district had four of 
the top five schools for year to year academic growth in the 
State of Colorado, and DPS continues a 5-year trend of academic 
achievement gains that has outpaced all other school districts 
in Colorado. In addition, in the last 4 years, the Denver 
Public Schools has seen a 40 percent decrease in the dropout 
rate.
    Before becoming superintendent, Mr. Boasberg had a 
distinguished career in the private and public sectors. But, 
Mr. Chairman, as I mentioned to you before the hearing, the 
real reason I am here is to ask you to please disregard 
anything he says negative about his predecessor, namely me, 
during the course of his testimony.
    Thank you, Mr. Chairman.
    Chairman Kline. Without objection. Thank you, Senator, and 
welcome.
    Next, I am happy to welcome Ms. DeLauro from Connecticut to 
our committee today to introduce our today's third witness.
    Ms. DeLauro. Thank you very much, Mr. Chairman.
    I want to thank you and our Ranking Member Miller for 
giving me this opportunity to introduce one of my constituents, 
David Cicarella, who is president of the New Haven Federation 
of Teachers. As the union president, David led the school 
reform efforts of the Federation, producing a new 4-year 
contract that emphasized collaboration, cooperation with New 
Haven's public schools, with their central office, and with the 
school board.
    The contract incorporates new, innovative measures for a 
teacher evaluation system that is being referenced nationwide 
as the, quote, ``New Haven model.'' It came about thanks to New 
Haven Mayor John DeStefano, New Haven Schools Superintendent 
Dr. Reginald Mayo, and our local teachers union all making the 
decision to work collaboratively through the existing 
collective bargaining process.
    David was instrumental in making it happen. He worked hard 
to build the support for the contract among his members. He was 
supported by the national affiliate throughout the process. And 
because of his hard work, our City of New Haven has led the way 
in demonstrating to the entire Nation that strong teachers' 
unions, strong schools, and strong education reforms are all 
part of the piece. It demonstrated a forward-thinking 
flexibility by all parties, a reaffirmation of the central 
importance of teachers' unions to our education system, and a 
positive and demonstrable commitment to real school reform by 
everyone involved.
    Along with heading the local AFT chapter, David knows the 
New Haven school system inside and out. Prior to his election 
as the union president in January of 2007, he was a classroom 
teacher, staff developer, instructional coach for 28 years, 
teaching science, reading, and math. For 5 years prior to 
becoming union president, he also taught mathematics courses at 
Gateway Community College in New Haven.
    So today's discussion is about teachers, their professional 
development, most importantly, how to ensure we are delivering 
the best possible education for our children. On these crucial 
matters it really is an honor for me to introduce my 
constituent, David Cicarella, to you; and I thank you for 
choosing him to testify before your committee today.
    Thank you, Mr. Chairman.
    Chairman Kline. I thank the gentlelady and add my welcome 
to Mr. Cicarella.
    Now it is my turn. I have the pleasure of introducing our 
final witness for today's hearing. Ms. Kate Walsh became 
president of the National Council on Teacher Quality in 2002. 
Before joining NCTQ, she worked for the Abell Foundation in 
Baltimore, the Baltimore City Public Schools, and the Core 
Knowledge Foundation. Her work has tackled a broad spectrum of 
educational issues, with a primary focus on the needs of 
children who are disadvantaged by poverty and race. She also 
serves on the Maryland State Board of Education.
    So welcome.
    Before I recognize each of you to provide your testimony, 
let me again briefly explain our lighting system. You will each 
have 5 minutes to give your testimony. All of your statements 
will be entered in their entirety in the record.
    When you start, there is a little lighting system in front 
of you. There will be a green light that comes on. After 4 
minutes, when you have 1 minute remaining, the light will turn 
yellow. When the 5 minutes are up, it will turn red; and I 
would ask you then to please summarize as quickly as you can. I 
am reluctant to bang the gavel while you are still speaking, 
but we also have a responsibility to keep this moving.
    So, again, welcome to you all; and we will start now. I 
will just move down the line, and we will start with Mr. 
Huffman.
    Sir, you are recognized.

       STATEMENT OF HON. KEVIN S. HUFFMAN, COMMISSIONER,
               TENNESSEE DEPARTMENT OF EDUCATION

    Mr. Huffman. Thank you, Chairman Kline and Ranking Member 
Miller and committee members. Thanks for having me and for 
taking the time to engage in thoughtful discussion about the 
role that teachers and teacher evaluation can play.
    This coming school year, Tennessee will launch our new 
statewide teacher evaluation system. Teachers will receive an 
evaluation score from 1 to 5, with 5 being the highest. Thirty-
five percent of the evaluation will be determined by value-
added scores from standardized tests. Fifteen percent of the 
evaluation will be determined by other student achievement 
metrics. Fifty percent of the evaluation will be a qualitative 
score based upon classroom observation.
    I want to pause here, though, and note something that I 
think is important. No evaluation protocol is perfect. In my 
mind, one of our great national failings in the discussion 
about teacher evaluation is that we consistently allow 
ourselves to be derailed through the unattainable concept of a 
perfect system. The reality, of course, is that evaluation in 
every field is imperfect; and our quest, instead, should be to 
create the best possible system and make sure that we continue 
to reflect on that system and refine it over time.
    In Tennessee, we think evaluations should be used for 
several key things: first, to support teachers by providing 
helpful feedback in real time; second, to identify the top 
performers in the field so that we can study and learn from 
them, recognize them, and extend their impact; and, third, to 
identify teachers in need of improvement so that we can tailor 
professional development and, in the case of a small 
percentage, exit them from the profession.
    For the qualitative 50 percent of Tennessee's evaluation 
model, we field tested three different observation rubrics last 
year, with very positive results. We also gathered input from 
our legislatively appointed Teacher Evaluation Advisory 
Committee, a 15-person committee, including eight educators. 
Ultimately, we selected the TAP rubric, which is the 
observation tool used in the Teacher Advancement Program, 
because of its strong performance in the field test but also 
because TAP was able to provide a high level of training and 
support for our first year of implementation.
    The TAP rubric measures teachers against 19 indicators on a 
1-to-5 scale, with clearly defined, observable criteria. 
Teachers will be observed by principals, assistant principals, 
or other instructional coaches. There will be a minimum of four 
observations a year for veterans and a minimum of six 
observations a year for apprentice teachers. At least half of 
the observations must be unannounced, and at least half of the 
observations have to happen during the first semester so that 
teachers are getting feedback early in the year. The 
observations are followed within a week with both written and 
verbal feedback.
    In order to become an observer, principals and other school 
leaders must go through rigorous training and pass a 
certification test. We have this summer trained nearly 5,000 
observers in very intensive 4-day sessions. Each observer must 
pass an inter-rater reliability test in which they watch 
videotaped lessons on line and answer questions.
    On the quantitative side, Tennessee has been collecting 
longitudinal data on students, with links to teachers, for 
nearly two decades and has produced value-added scores for 
teachers in tested subjects and grades for years. For the 
roughly 45 percent of our teachers who teach in tested subjects 
and grade levels, the student growth component of the 
evaluation will be based on these value-added scores.
    For teachers in non-tested subjects and grade levels, in 
most instances we will this year use a school-wide value-added 
score. For instance, an elementary school art teacher would be 
rated based on the value-added score of the school for the 35 
percent of the evaluation.
    Now, I want to identify with transparency some of the 
critiques of our system and how we are thinking about them.
    First, on the qualitative observations, while in the field 
test, teachers and principals had a very positive response to 
the rubric, we have heard some concerns. Some teachers worry 
that observers won't do a good job, and we are attempting to 
address that concern through rigorous training and through 
ongoing support.
    Also, principals are being evaluated on how well they 
implement the teacher evaluation system. But in the end, as in 
every profession, we can't guarantee that every boss is a good 
boss. Some principals are worried that the time required is too 
much, but the field test demonstrated that this should not be a 
concern. And, more importantly, our evaluation system propels a 
critical cultural shift in the job description of principals. 
Principals are now no longer simply building and budget 
managers. They have to take responsibility for instruction and 
for the development of talent in their schools.
    And, finally, the largest challenge I see on the 
qualitative side is trying to ensure consistency in the range 
of distribution of the observation scores, which we are trying 
to do through central tracking and then engagement with the 
districts.
    Quickly, for the quantitative piece, the biggest critique 
currently is from teachers in the untested subjects and grade 
levels. Many feel it is unfair to be assessed through school-
wide value-added scores, and what we are doing this year is 
making sure that we field test other assessments across the 
State for different fields.
    Then, for the following school year, we would like to offer 
districts, at their discretion, the ability to use additional 
assessments; and we anticipate that some districts would choose 
to use those assessments, while other districts may continue to 
believe that school-wide data is actually appropriate for 
teachers in some circumstances.
    I want to thank you for having me. This is a work in 
progress. We are learning a lot from this system. I do think it 
is really important that we all stay grounded in the idea that 
evaluation is important, that it is always going to be somewhat 
subjective and imperfect, and that the important thing is that 
we study it, learn from it, and keep making it better over 
time.
    Thank you.
    [The statement of Mr. Huffman follows:]

               Prepared Statement of Hon. Kevin Huffman,
                  Tennessee Commissioner of Education

    Chairman Kline, Ranking Member Miller and committee members, I am 
Kevin Huffman, Commissioner of Education in Tennessee. Thank you for 
inviting me to testify about our work to improve education for our 
nearly 950,000 public school students in the state.
    I want to thank the Committee for taking the time to engage in 
thoughtful discussion about the role that teachers and teacher 
evaluation can play in the effort to build a better education system. 
We are grappling with many complicated questions in Tennessee, and I 
hope that our experiences will be helpful as you consider the broader 
implications.
    Let me start by providing some context about our work. I was 
appointed by our newly elected governor, Bill Haslam, and have been in 
this position for a little under four months. Tennessee has been 
working on a variety of education reforms for much longer, with broad 
bipartisan and community support. While the current legislature and 
governor are Republican, the bill creating our teacher evaluation 
system was passed by a bipartisan legislature and signed by Governor 
Bredesen, our Democratic predecessor, who did significant work to 
advance reforms in education. This work has been continued and 
accelerated by Governor Haslam, who led the effort to implement many 
reforms, and to pass landmark tenure and charter school legislation 
this year.
    The legislature and Governors have acted in large measure because 
our education system has not delivered acceptable results. Tennessee 
ranks around 43rd in the nation in student achievement. At the same 
time, our state assessments historically showed that around 90 percent 
of our students were proficient. Additionally, virtually all teachers 
were automatically tenured after three years, and tenured teachers were 
evaluated (without data) twice every ten years. The system was broken, 
and a bipartisan coalition of political leaders stepped in and took 
action.
    Beyond the legislative work, there is broad community support for 
education reform in Tennessee. While he is known here in Washington for 
different work, Bill Frist started an organization in Tennessee called 
SCORE, which pulls together the business, education, philanthropic and 
local civic organizations under one umbrella to talk about schools. It 
has been enormously successful in gathering input and building 
consensus for change in the state.
    This coming school year--2011-12--Tennessee will launch our new 
statewide teacher evaluation system. Let me describe how it will work:
    <bullet> Teachers will receive an evaluation score from 1 to 5, 
with 5 being the highest.
    <bullet> 35% of the evaluation will be determined by value-added 
scores, or comparable growth scores, from standardized tests.
    <bullet> 15% of the evaluation will be determined by other student 
achievement metrics, selected through a joint-decision by principals 
and individual teachers.
    <bullet> 50% of the evaluation will be a qualitative score based on 
classroom observation.
    These components are in the legislation, and our job at the state 
department of education is to help districts and schools implement the 
evaluation system as well as possible.
    I want to pause here, though, and note something that I think is 
important. No evaluation protocol is perfect. There is no system that 
is 100% objective, 100% aligned and normed, and 100% reliable. One of 
our great national failings in the discussion about teacher evaluation 
is that we consistently allow ourselves to be derailed through the 
lofty and unattainable concept of the perfect system. The reality, of 
course, is that evaluation in every field is imperfect. The quest is 
not to create a perfect system. The quest is to create the best 
possible system, and to continue to reflect on and refine that system 
over time.
    In Tennessee, we think evaluation should be used for several key 
things. First, support teachers by providing helpful feedback in real 
time so that they can continue to improve their craft. Second, identify 
the top performers in the field so that we can study and learn from 
them, recognize them for their work, and extend their impact by 
building meaningful career pathways that allow them to touch ever-more 
kids. Third, identify teachers in need of improvement so that we can 
tailor professional development to their needs and, in the case of a 
small percentage who cannot reach a bar of effectiveness, exit them 
from the profession. Because the national conversation has often 
focused primarily on evaluation as a means for removal of ineffective 
teachers, we too often lose sight of the way the vast majority of 
teachers will experience the evaluation system: as a means for feedback 
and professional development, and an opportunity to learn from the very 
best teachers.
    As we prepare for full state implementation of our evaluation 
system this year, we are working on the challenges of both the 
qualitative and the quantitative components. I will describe briefly 
how the system works, what the challenges and critiques are, and how we 
are attempting to address those considerations.
    For the qualitative 50%, we field-tested three different 
observation rubrics and rating systems across the state last school 
year, with very positive results. We also gathered input from our 
legislatively appointed TEAC committee--the Teacher Evaluation Advisory 
Committee--which met more than 20 times over the course of the year to 
craft policy guidelines and criteria, review field test data, offer 
ideas about additional implementation needs, and to make 
recommendations about the quantitative and qualitative data components. 
This 15-person committee included eight educators, the executive 
director of the State Board of education, a legislator and several 
other business and community stakeholders.
    Ultimately, we have selected the TAP rubric (the observation tool 
used in the Teacher Advancement Program) both because of its strong 
performance in the field test with teachers and principals, but also 
because TAP was able to provide the level of training and support that 
we need for the first year of implementation. Here is how this works.
    The TAP rubric measures teachers against 19 indicators across 4 
domains on a 1 to 5 scale, with clearly defined, observable criteria. 
Teachers will be observed by principals, assistant principals, or other 
instructional coaches or leaders designated by the principals. There 
will be a minimum of four observations a year for professionally 
licensed teachers, and a minimum of six observations a year for 
apprentice teachers. At least half of the observations must be 
unannounced. At least half of the observations must be during the first 
semester so that teachers get feedback early in the year. The 
observations vary in length, from full lesson-length observations, to 
15-minute walk-throughs, and are followed within a week with both 
written and verbal feedback.
    In order to become an observer, principals and other school leaders 
must go through rigorous state-facilitated training, and must pass a 
certification test. We have, this summer, trained nearly 5,000 
observers in very intensive four-day sessions led by expert TAP 
trainers. Each observer then must pass an inter-rater reliability test 
in which they watch video taped lessons on-line and answer questions to 
ensure that they understand what constitutes low, medium and high 
performance on the different components of the rubric. They must also 
demonstrate the ability to provide high-quality feedback based on the 
observed lesson by submitting a post-observation conference plan.
    On the quantitative side, Tennessee has been collecting 
longitudinal data on students, with links to teachers, for nearly two 
decades and has produced value-added scores for teachers in tested 
subjects and grades for years. For the roughly 45% of our teachers who 
teach in tested subjects and grade-levels (essentially, third through 
eighth grade in science, social studies, language arts and math, and 
high school end of course exams), the student growth component of the 
evaluation will be based on the same value-added scores that the state 
has generated and used over time.
    For the teachers in non-tested subjects and grade levels, to meet 
the statutory requirement of 35% of a teacher's evaluation tying to 
student growth data, in most instances we will use a school-wide growth 
score for this coming year. For instance, an elementary school art 
teacher will be rated based on the value-added score of the school for 
the 35% of the evaluation. Simultaneously, we are working closely with 
Tennessee educators and technical experts in subject matter committees 
to identify and develop comparable, alternative growth measures in 
these non-tested subjects and grades.
    Let me identify with transparency some of the critiques of our 
system and how we are thinking about them.
    First, the qualitative observations: In the field test, teachers 
and principals had an overwhelmingly positive response to the rubric, 
liked the observation protocol, and in particular liked the forced 
face-to-face feedback sessions with school leaders. Teachers felt like 
the process of observation and real-time, targeted feedback increased 
their ability to provide their students with effective instruction, and 
principals learned much more about their teachers' work and how to act 
as instructional leaders.
    That said, there are a number of concerns that teachers, principals 
and superintendents (generally, ones who did not participate in the 
field test) have aired in my many visits around the state. First, 
teachers worry that that the observers will not be effective because of 
skill limitations. We are attempting to address that real concern 
through rigorous training and through ongoing support. We will have 
nine coaches across the state who will be going into buildings this 
year and re-training and helping support administrators who may 
struggle with the new demands of this system. Additionally, principals 
are being evaluated this year, and part of the principal evaluation 
includes an assessment of how well they implement the teacher 
evaluation. In the end, though, we cannot guarantee that every boss is 
a good boss. This is true in every profession and every walk of life.
    With so many competing demands, principals worry that the time 
required is too much. The field test demonstrated however, that this 
should not be a concern. By designating additional administrators and 
getting them trained through the state program, principals should spend 
an average of five hours a week observing and conferencing with 
teachers if they plan their schedules and pace their observations 
effectively. More importantly, though, this evaluation system propels a 
critical cultural shift and growing trend in the job description of 
principals. Principals are no longer simply building and budget 
managers. They must take responsibility for instruction and for the 
development of talent in their schools in order for us to meet our 
ambitious state goals over the coming years.
    Finally, the largest challenge I see is trying to ensure 
consistency in the range of distribution for the observation scores. By 
this, I mean that we would like the same teacher using the same lesson 
to get the same score across different schools and across different 
districts. This also includes achieving a reasonable, consistent 
relationship between the quantitative and qualitative components for 
individual teachers across schools, districts and educator groups 
throughout the state. This level of consistency will not happen without 
a great deal of ongoing support, guidance and hard work on the part of 
school leaders, but we are working to build systems and support 
structures that will allow us to exercise as much quality control as 
possible.
    To this end, we are creating an on-line reporting platform so that 
principals across the state will be able to enter observation scores in 
real time, and we will be able to compile data at the school, district 
and state level. This means that in November, for example, we would be 
able to see through our state system that the average observation score 
in County X is a 3.2, while the average observation score in County Y 
is a 4.2. If the different levels of ratings do not correspond with 
achievement scores in the district--meaning that if County Y is not 
significantly outperforming County X on its achievement and value-added 
scores--we will reasonably assume that the counties are applying 
difference standards, despite our training and support. We then will be 
able to engage in site visits, observations, and re-norming of the 
observers and observation scores. In essence, we need to make sure to 
the extent possible that districts across the state are holding 
themselves to the same bar.
    For the quantitative piece, we are proceeding this year with the 
current system while we field-test and explore additional options for 
the 2012-13 school year. The biggest current critique is from teachers 
in the untested subjects and grade levels. Many feel that it is unfair 
to be assessed through school-wide value-added scores. Here is how we 
are thinking about that piece.
    First, this year we are working with teams of educators and experts 
to field-test several alternative assessments across multiple fields. 
For the following school year, we would like to offer districts--at 
their discretion--the ability to use demonstrated high-quality 
assessments. Some districts may choose to use these assessments, both 
because of the assistance in identifying student needs and also for 
individualizing teacher value. Some districts may continue to believe 
that school-wide data facilitates team-building and helps create a 
sense of collective accountability for results.
    I will share my own belief on this, which stems in part from my 
experiences as a former first and second grade teacher. I believe that 
for academic subjects and grades--for instance, first grade or 
secondary foreign languages--we should aspire to use assessments that 
capture teachers' individual impact on student growth. For many 
subjects, though,--for instance art and music--it is appropriate to use 
school-wide value-added data. I do not think we should test kids in 
every single class. Furthermore, teachers who touch large numbers of 
students in a school have a school-wide impact, not just on reading and 
math but also on building the school culture that plays a large role in 
outcomes. As one music teacher shared with me at a roundtable, ``When 
there are budget cuts that eliminate music positions, we are the first 
people to step up and talk about our school-wide impact.''
    An additional concern is that the value-added scores will 
disadvantage teachers who work in the highest-need schools and 
classrooms. Our evidence does not support this claim. There are wide 
disparities in value-added data among districts and schools, and some 
suburban schools with high absolute achievement scores nonetheless have 
lower value-added scores. Additionally, as an alumnus of Teach For 
America, I am proud to note that in our assessment of teacher 
providers, teachers from Teach For America and Vanderbilt outperformed 
teachers from every other pathway on value-added scores. Teach For 
America teachers, of course, teach in the highest need classrooms in 
the state.
    A third complaint involves the volatility of value-added scores. 
Some experts believe that value-added scores waver too much from year 
to year. We believe that value-added scores, as used by the state over 
a period of years, are meaningful indicators of annual progress. To 
ensure the fairest system, though, we are going to use three-year 
rolling value-added scores for teachers for their individual 
assessments where possible. For instance, a teacher who has taught at 
least three consecutive years will be scored through the average of 
those years rather than simply through the last year. For teachers with 
only two years of scores, we will use the two-year average, and for 
teachers with one year, that will constitute the score for their 
assessments.
    One additional challenge is that there are a surprising number of 
one-off situations that impact the ability to use quantitative data. We 
have teachers who teach multiple subjects across multiple schools, 
particularly in remote areas, and it becomes ever more difficult to 
isolate the impact. We have teachers who teach in alternative settings, 
where students are sent to them because of behavior problems but may 
only be in their class for a period of a few weeks.
    These are real issues, and we care about doing the best job we can 
in these situations. I feel strongly, however, that we cannot let the 
outlier examples dictate policy for the vast majority of teachers. We 
are likely to read many newspaper stories this year in Tennessee that 
focus on anecdotes about individual teachers who do not fit perfectly 
within our evaluation framework. We have to strike the right balance of 
working to improve the evaluation tools for those teachers, while 
remaining focused on what I believe is a strong system for the vast 
majority of teachers.
    I want to touch quickly on the implication of the evaluation system 
for teachers. Essentially, what are the stakes?
    First, Tennessee's evaluation law states clearly that ``evaluations 
shall be considered in personnel decisions.'' This simple directive is 
critical to school district policy moving forward. LIFO--the pernicious 
system of laying off the youngest teachers first, regardless of how 
good they are--cannot be used any more. Schools must take the 
evaluations into consideration.
    Second, under Governor Haslam's leadership, Tennessee passed 
landmark tenure legislation this year. Previously, teachers were 
granted tenure after three years, and virtually every teacher got it. 
It was a virtual rubber stamp. Moving forward, teachers are eligible 
for tenure after a minimum of five years and only if they score a 4 or 
a 5 on the evaluation for their most recent two years of teaching. 
Additionally, teachers who gain tenure under the new system will lose 
their tenure if they are rated a 1 or a 2 for two consecutive years.
    I believe this legislation will be groundbreaking for Tennessee 
over the coming decades. If there is any place for tenure in K to 12 
education, it must be tied to teacher effectiveness, not just initially 
but in an ongoing way.
    Let me close with some broad thoughts based on our experience in 
Tennessee. First, there is no perfect evaluation system. It doesn't 
exist and we should stop pretending that the goal is perfection. 
Second, a good evaluation system must have multiple measures. It must 
have both a tie to quantitative student achievement growth, and it must 
have multiple means of assessing a teacher, qualitatively. Third, there 
should be a continuous improvement cycle for the system itself. We are 
going to review our system every year, make changes based on feedback 
from teachers and administrators, and keep making it better.
    Additionally, while I have focused on our statewide TAP rubric for 
observation today, we have approved three alternative observation 
systems that several districts will use this year. One system is built 
around ten or more short observations of 5-10 minutes each. Another, 
through the work of the Gates Foundation in Memphis, uses multiple 
tools including student surveys. We approved these models precisely 
because we don't think we have designed a perfect system and because we 
do think we should have multiple systems in place that we can study and 
learn from.
    Finally, from my experiences to date in Tennessee, I strongly 
believe that at some point, states simply have to stop planning and 
dive in to do this work. I know there are many states that continue to 
kick implementation one year farther down the road. This seems to be 
rooted in the futile belief that states will perfect the system before 
rollout, or that opponents of the system will be assuaged by delay. 
Neither is true. At some point, states and districts have to actually 
implement the system, and I am enormously proud that Tennessee is 
implementing the system this year, without giving in to calls for 
further delay.
    Thank you again for the opportunity to present on behalf of my 
boss, Governor Haslam, and the state department of education of 
Tennessee. I look forward to fielding questions on this important 
topic.
                                 ______
                                 
    Chairman Kline. Thank you, sir.
    Mr. Boasberg, you are recognized.

           STATEMENT OF TOM BOASBERG, SUPERINTENDENT,
                     DENVER PUBLIC SCHOOLS

    Mr. Boasberg. Great. Thank you very much, Chairman Kline 
and Ranking Member Miller.
    I certainly want to also thank Senator Bennet for his kind 
introduction. Certainly the work that Michael led as 
superintendent to Denver Public Schools and his focus on 
attracting and developing and retaining great teachers and 
high-quality instruction for all and his relentless can-do 
spirit and optimism really helped transform the Denver Public 
Schools.
    So we have a slide deck for you today where we are focusing 
on a couple slides. And if we can go to the first slide in the 
deck, it really says, why are we doing this? Why is our program 
we call LEAP, Leading Effective Academic Practice, the number 
one priority of the district?
    And it is precisely because having a great teacher in every 
classroom is the most important thing in driving student 
achievement and helping close the achievement gaps we have in 
Denver, providing equity for every one of our students so that 
we can create a much stronger economic and civic future for the 
Denver community.
    Next slide, please.
    We have collaborated very, very closely with our teachers 
to jointly spell out what excellence in teaching across its 
many dimensions means, through focus groups, through joint 
principal and teacher design teams. And I certainly want to 
recognize the leadership of our teachers' association 
president, Henry Roman, for his role in helping lead this 
process.
    We piloted our new system this last spring in 16 of our 
schools with over 500 teachers, got a very strong response from 
our teachers, and in May teachers at each one of our schools 
had the chance to vote whether this school year, beginning next 
month, to use the system. And I am pleased to say that teachers 
in over 95 percent of our schools have chosen to do so.
    Next slide, please.
    The next slide represents our framework for effective 
teaching, the observation tool that principals and peer 
observers use to observe and give feedback to teachers about 
their classroom instruction. There are 21 specific indicators 
on the framework that fall into eight specific expectations 
around positive classroom culture and climate, effective 
classroom management, standards-based goals, high-impact 
instructional moves, differentiation, masterful content 
knowledge, academic language development, and 21st century 
skills.
    You will note a particular emphasis on the importance of 
our English language learners, who make up over 40 percent of 
the district students. One reason we chose to develop our own 
framework and rubric was we felt the national available 
frameworks did not have an adequate focus on English language 
learners.
    And you will also note the focus on the key skills we know 
our students need to develop to be successful in this century's 
economy: critical thinking, creativity, academic language, 
collaboration, and classroom leadership among them.
    Slide five, the next slide, shows how our teachers, 500 
teachers in the pilot have felt. Over 80 percent of them have 
felt that they got feedback that was actually helping them 
improve their classroom instruction, more than two times under 
our previous system. And we know how extraordinarily 
challenging and sophisticated quality teaching is and how 
important coaching and feedback is to teachers to develop their 
professional craft.
    Next slide, please.
    This slide then begins to show one of the elements on the 
framework, specifically how a teacher motivates students to 
learn, to take academic risks, and demonstrate classroom 
leadership and really try and have very concrete and specific 
examples of what excellent practice is to give teachers that 
specificity and to help coaches provide coaching and feedback 
to our teachers.
    Next slide.
    This slide looks at that same indicator, motivating 
students to learn, take academic risks, and demonstrate 
classroom leadership and looks at student behaviors. And one of 
the things that we care most about our framework is that, for 
each of the elements, we not look only at the behaviors of the 
teacher but what is going on in the classroom. What impact is 
that having on students in the classroom? Because if it is not 
happening among students, then it is not happening. That 
clearly is the measure of effective instruction, is how 
students are reacting. So this looks very specifically and 
concretely at how students are doing in the classroom and tries 
to then distinguish what is, for example, very effective 
practice.
    When you look at something like the first bullet, almost 
all of the students begin work immediately after tasks are 
assigned and continue on task throughout their work time, 
versus approaching, which is that most students begin working 
on tasks after assigned, and some are struggling with those 
tasks.
    Next slide.
    Another example of this is on providing opportunities for 
creativity/innovation, critical thinking, and problem solving. 
Again, both the teacher behaviors and the student behaviors.
    Next slide, please.
    Just as students, so do adult learners need to focus on 
critical areas of development. So we make sure that in our 
framework each individual teacher picks one area of focus, each 
school picks a particular area of focus for focus on school-
wide so all the professional development in that school is 
focused in the line towards the growth of the teachers 
throughout that building in that particular area.
    Go through the next two slides, if you would, which are 
about professional development, videos that we have on our 
website that demonstrate excellence in practice across each of 
the 21 indicators, excellent DPS teachers demonstrating that 
practice.
    This slide, part of our system also is feedback from 
students on questions that have been shown to be correlated 
with growth and student achievement. This is one of the 
elements of our program as well.
    The next and last slide, please.
    And then overall, summing up, overall, the teacher's 
assessment is based on a whole series of multiple measures. As 
required by State law, half of the assessment is based on 
multiple measures of growth in student achievement. And we also 
have the principal and peer observations, we have the 
professional contributions to team and to school, and we have 
the student perception data. So we believe very strongly in 
multiple and balanced measures of teachers, with a real focus 
on feedback and coaching and professional development of the 
professional skills of our teachers.
    Thank you.
    [The statement of Mr. Boasberg follows:]

         Prepared Statement of Thomas Boasberg, Superintendent,
            School District No. 1, City and County of Denver

    Good Morning Mr. Chairman and Members of the Committee. I would 
like to thank you for this opportunity to provide input regarding the 
critical issue of educator effectiveness. I am Tom Boasberg, 
Superintendent of Denver Public Schools. I have been Superintendent 
since January, 2009.
    Below we detail the purpose of our Leading Effective Academic 
Practice system (LEAP), the collaborative process used to develop LEAP, 
the Framework for Excellent Teaching, and the set of professional 
develop supports for our teachers that are aligned with LEAP.
Purpose of Leading Effective Academic Practice System (LEAP)
            Overview: The Denver Plan
    The 2010 Denver Plan lays out the DPS vision and the course we are 
embarking on to achieve our goals. It states the district's committed 
to having a highly effective teacher in every classroom and building 
strategies to support this commitment.
    The Empowering Excellent Educators work, including LEAP, focuses on 
two strategies within the Denver Plan:
    1. GREAT PEOPLE TO DRIVE BETTER OUTCOMES FOR STUDENTS: Development 
of a multiple-measure teacher evaluation and feedback system that 
meaningfully differentiates the performance of teachers.
    2. FOCUS ON THE INSTRUCTIONAL CORE: Create conditions to ensure 
educator effectiveness. This will require us to develop a shared 
definition of effective teaching (DPS Framework for Effective 
Teaching); do more to support teachers in becoming effective teachers; 
and continue to develop principals to be effective leaders.
            The Need for Reform:
    Despite the progress that we have made as a district, we must face 
the sobering reality:
    <bullet> Too few DPS students are proficient on the state's 
reading, mathematics and writing measures.
    <bullet> Not enough of our students are graduating from high 
school.
    <bullet> In a district where a majority of our students are of 
color--58% Latino and 14% African American--and 73% of all students are 
FRL, an unacceptable achievement gap persists between our African-
American and Latino students and their Anglo and Asian-American 
counterparts.
    While our growth confirms that we are on the right track, we 
acknowledge that we must significantly accelerate our rate of 
improvement and put far more of our students on the path to graduation 
and success in college and careers.
    Study after study has made clear that the most important factor in 
closing the achievement gap is the quality of teaching. Our students 
deserve our best and we need to ensure that all students have great 
teachers.
            Ready for Reform:
    It is time to accelerate our reforms, to sharpen the focus on 
student achievement and classroom excellence.
    A report released in August 2010 by the Thomas B. Fordham Institute 
recognized Denver as the 4th best city in the country for cultivating a 
healthy environment for school reform to flourish.
    The Council of the Great City Schools, a national organization of 
67 of the nation's largest urban school districts, stressed in its 2009 
evaluation of DPS that our district's vision for reform is ``one of the 
most promising and comprehensive in the nation.'' The council further 
noted, ``The architecture of these reforms--instructional, financial, 
and human capital--is among the most seamlessly conceived in all of 
urban education in the United States.''
    Denver Public Schools has made steady strides in the past few 
years. Our momentum is strong and we need to capitalize on it now. 
Investing in teachers is one of the critical ingredients to school 
reform in Denver. Essential to our reform strategy is empowering 
educators with meaningful feedback to enhance their instruction and 
maximize their impact on student achievement.
            Empowering Excellent Educators: Elevating the Teaching 
                    Profession
    Empowering Excellent Educators is a comprehensive set of 
initiatives rooted in a commitment to consistently develop, recognize, 
reward, recruit and retain great teachers and principals. LEAP is part 
of DPS's commitment to Empowering Excellent Educators.
                           reward and retain
    <bullet> Foster a supporting environment for all DPS teachers to 
grow professionally
    <bullet> Recognize and reward our best teachers as an invaluable 
resource
    <bullet> Provide opportunities for leadership and advancement for 
highly effective teachers
    <bullet> Build sustainable training structures
    <bullet> Provide coaching to new teachers
                              recruitment
    <bullet> Attract excellent new and experienced teachers
    <bullet> Recruit diverse teachers who reflect our diverse student 
population
    <bullet> Complete early hiring cycles to secure the best available 
talent
    <bullet> Provide multiple pathways into teaching including Denver 
Teacher Residency (DTR)
    <bullet> Train our principals on how to successfully identify and 
onboard new teachers that fit their school culture
                               evaluation
    <bullet> Provide evaluations that are transparent, objective and 
complete
    <bullet> Use multiple measures, including peer observation and 
student achievement data
    <bullet> Link to differentiated professional development
                  professional development and support
    <bullet> Provide meaningful professional development
    <bullet> Link professional development to identified needs
    <bullet> Create a structure of feedback and support
    <bullet> Provide teachers with the online tools and resources they 
need for success, including online assessment tools and easily 
accessible curricular resources
    Every component of Empowering Excellent Educators is built on the 
respect for the central role of educators in raising student 
achievement in the district. Our hope is that Empowering Excellent 
Educators will elevate the teaching profession within DPS, in our 
community and shine a national spotlight on the far-reaching and 
profound impact we know teachers have on their students.
Collaborative process used to develop LEAP
            Collaboration:
    From the planning stage and throughout development, DPS and DCTA 
have worked collaboratively. DPS and DCTA recognize that a successful 
Framework for Effective Teaching and the supporting evaluation system, 
LEAP, must be informed by the ideas and experiences of actual 
practitioners.
    DPS and DCTA have worked together to organize various engagement 
groups:
    <bullet> Steering Committee: An oversight committee for Empowering 
Excellent Educators responsible for ongoing strategic direction and 
decision making. Members of the group:
    Tom Boasberg--DPS Superintendent
    Susana Cordova--DPS Chief Academic Officer
    Shayne Spalten--DPS Chief Human Resources Officer
    Henry Roman--DCTA President
    Carolyn Crowder--DCTA
    <bullet> Professional Practices Work Group: A group comprised of 
DPS employees, DCTA members, and outside experts that act as an 
advisory board to the LEAP steering committee, project leadership team, 
and design teams.
    <bullet> Focus Groups: Conducted by a third party and used 
throughout the development of LEAP and the DPS Framework for Effective 
Teaching to incorporate teacher and principal voice.
    <bullet> Design Teams: Groups of teachers and principals within DPS 
that were formed to incorporate teacher and principal voice into the 
new DPS Framework for Effective Teaching and LEAP. The five Design 
Teams include: Principal Effectiveness, Teacher Effectiveness, Peer 
Observation, Student Assessment and Outcomes, and Professional 
Development.
    <bullet> LEAP Project Leadership Team: DPS staff dedicated to the 
development of LEAP and the DPS Framework for Effective Teaching. The 
team includes a full-time DCTA Liaison who works closely with the LEAP 
team and brings DCTA perspective on a daily basis.
            Focus Group Findings:
    Over a three week period in April 2010 approximately 225 
principals, teachers, district staff, and students participated and 
shared their ideas in focus groups facilitated by a neutral third 
party.
    The purpose of the focus groups was two-fold:
    1. DPS and DCTA wanted to gather the best information possible from 
all stakeholders about what is working within the current system, what 
is most in need of repair, and what would be necessary to build a more 
ideal teacher performance assessment system.
    2. The focus groups would serve as an important step in a 
continuous improvement cycle that will seek out input, share that input 
with Design Teams, and check back to ensure the designs are in 
alignment with the specifications outlined by focus group participants.
    The Focus Groups resulted in a set of Core Values that have been 
used to guide the development of the DPS Framework for Effective 
Teaching and LEAP.
                        focus group core values
    <bullet> Rooted in Professional Expertise
    The definition of effective teaching needs to be based on the best 
research and is co-constructed by teachers themselves. Administrators 
and other evaluators must have the background and expertise necessary 
to accurately and fairly assess the quality of the teaching they are 
charged with observing.
    <bullet> Multiple Sources of Data
    The system of assessment should bring together various points of 
data (including principal observation, peer observation, student 
growth, self-reflection, and other information) to identify areas of 
strength and to set clear, specific targets for growth.
    <bullet> Continuous Feedback
    The system should provide frequent and ongoing feedback about 
practice, rather than one-shot data points. Constructive feedback is 
the lifeblood of improvement, providing information about areas of 
strength and areas for growth, and it should flow through all aspects 
of the system to ensure each element--from classroom practice to 
professional development--is achieving the desired results.
    <bullet> Consistency with Flexibility
    The system should set clear standards of effective practice and 
apply them faithfully and fairly across the district, but allow enough 
flexibility to set goals for improvement and professional development 
based on the levels of experience and unique needs of each educator.
    <bullet> Accountability
    While the system should aspire to help everyone improve their 
practice, it must also distinguish between various levels of 
performance, and hold people accountable for reasonable results. 
Improvement plans must be followed and have consequences. The 
measurement system should change from a binary ``satisfactory/
unsatisfactory'' to a continuum of performance with specifically 
defined levels of proficiency.
    <bullet> A Culture of Learning
    The system must support and encourage learning and innovation at 
all levels--in students, in educators, and in administrators--instead 
of being punitive or just rewarding compliance. Growth must be the end-
game for all members of the system. The district as a whole, as well as 
individual schools, must be intentional about fostering a culture that 
supports everyone to learn.
    <bullet> Reward Effectiveness
    The system should reward effectiveness, linking financial rewards 
to the evaluation system as well as non financial rewards such as 
recognition and unique professional opportunities. It should reward 
effectiveness regardless of years of experience.
            Design Teams:
    After the initial focus groups were held, the next step in teacher 
and principal engagment was to form five Design Teams in the spring of 
2010.
    1. Teacher Effectiveness
    2. Principal Effectiveness
    3. Peer Observations
    4. Professional Development
    5. Student Assessments and Outcomes
    The five Design Teams worked many hours during the summer and fall 
of 2010. They applied the Core Values from the focus groups in addition 
to pertinent national research and made recommendations on the specific 
components of the new LEAP system as well as the development of the DPS 
Framework for Effective Teaching. The passion and dedication they put 
into their work was inspiring. As one Design Team member states:

    ``Teachers and administrators working together to define, describe 
and expect effective teaching will help ensure that every child has an 
excellent teacher in their classroom.''
                                             La Dawn Baity,
                                Principal, Steck Elementary School.
            Spring 2011 Pilot:
    The next step in teacher and principal involvement. * * *
    From the start, this effort has been collaborative and informed by 
the teachers and principals who will ultimately be supported by the new 
system. From focus groups to Design Teams to the spring 2011 LEAP pilot 
* * * teacher and principal voice has been a key element of the 
development process.
    The spring 2011 LEAP pilot schools experienced various components 
of LEAP and provided their input to help guide improvements to the 
system prior to the district-wide pilot in 2011-12.
            LEAP Pilot: January-May 2011
    Sixteen schools piloted components of LEAP from January--May 2011. 
Teachers and principals in these schools were the first to experience 
the system. In many ways they were the architects of LEAP as their 
feedback guided improvements to the system in preparation for the 
district-wide pilot beginning in August 2011.
    DPS's approach of teacher and principal involvement is somewhat 
unique: it ensures that our new evaluation tool will be informed by 
teachers and principals within the district from inception through 
rollout.
FRAMEWORK FOR EXCELLENT TEACHING
            Overview: The foundation * * *
    The DPS Framework for Effective Teaching serves as the foundation 
for the Empowering Excellent Educators work in DPS. It provides 
teachers and principals with:
    <bullet> A shared understanding of effective teaching in DPS
    <bullet> A foundation upon which teachers can reflect and perfect 
their craft
    <bullet> Observation tool used in LEAP, the new teacher evaluation 
system
    Effective teaching = success with kids. The DPS Framework for 
Effective Teaching captures the potential of teaching actions to impact 
student learning in classrooms across Denver.
    The framework currently includes standards for measuring the 
effectiveness of teachers in the classroom (onstage domains). We are in 
the process of building out the standards for rating teachers' 
effectiveness outside of the classroom (offstage domains).
         4 domains in the dps framework for effective teaching
    Onstage Domains
    Offstage Domains
    <bullet> Learning Environment
    <bullet> Planning & Preparation
    <bullet> Instruction
    <bullet> Professionalism
    With the DPS Framework for Effective Teaching, performance ratings 
move from a binary system of ``satisfactory'' and ``unsatisfactory'' to 
a continuum of performance with four levels of effectiveness and seven 
rating categories:
    <bullet> Not Meeting (1-2)
    <bullet> Approaching (3-4)
    <bullet> Effective (5-6)
    <bullet> Distinguished (7)
    Multiple ratings provide the opportunity to identify areas of 
strength as well as growth opportunities. Teachers are able to target 
their professional development to their growth areas. All teachers, 
whether new to the profession or veteran teachers, can continue to grow 
professionally and be even better for their students.
            Development: Initial Development
    Some of the most significant and challenging Design Team work was 
that of the Teacher Effectiveness Design Team. When discussing the 
framework to be used in DPS, the Design Team placed high priority on 
several aspects:
    <bullet> ELL-focused, urban lens
    <bullet> Teacher AND student behaviors
    <bullet> Meaningfully differentiated performance of teachers
    <bullet> Comprehensive but manageable
    The Design Team looked at various national frameworks and 
observation tools:
    <bullet> Charlotte Danielson's Framework of Effective Teaching
    <bullet> Classroom Assessment Scoring System (CLASS)
    <bullet> Teacher Advancement Program (TAP)
    <bullet> Quality Urban Classrooms (QUC)
    <bullet> The Denver Teacher Residency Framework for Educational 
Equity
    In the end, the Design Team recommended that DPS develop our own 
framework based on the best components of each tool, aligned to their 
specific understanding of teacher effectiveness in DPS, and based on 
the 4 domains of Learning Environment; Instruction; Planning and 
Preparation; and Professionalism.
    The resulting DPS Framework for Effective Teaching is a homegrown, 
practitioner-designed tool that pulls from research-based tools used 
locally and nationally.
                          framework refinement
    The DPS Framework for Effective Teaching was the foundational tool 
used in over 1400 classroom observations and feedback conversations 
during the spring 2011 LEAP pilot. DPS also aligned all professional 
development offerings to the Framework making it the core of personal 
reflection as well as professional growth.
    Teachers and principals in the 16 pilot schools provided extensive 
feedback on the Framework which was carefully assessed by the LEAP 
project team and McREL, a third-party program evaluator.
    In May/June 2011, the DPS Framework for Effective Teaching was 
revised based on pilot feedback, alignment to Common Core State 
Standards, and alignment to the DPS English Language Acquisition 
program.
    The most noticeable change to the Framework was the addition of 
three new indicators focused on English Language Acquisition: two of 
these indicators will be observed in ELA-E and ELA-S classrooms and the 
third will be observed in ELA-S classrooms.
    The new indicators emphasize and support effective practice for 
English Language Learners across the district, which constitute more 
than 40% of our student population and apply to over 2600 designated 
ELA-E and ELA-S teachers.
    The revised Framework for Effective Teaching will be used in the 
2011-12 LEAP pilot in over 120 DPS schools. Feedback from educators 
across the district during the pilot year will inform future 
improvements.
            View the Framework: DPS Framework Overview for Effective 
                    Teaching 2011-12
                            aligning support
    DPS is working to create a variety of different types of high 
quality professional development that are aligned to the DPS Framework 
for Effective Teaching. Teachers are able to access targeted support 
which enables them to refine their craft and continue to grow 
professionally.
    For example, video exemplars of effective instructional practice 
aligned to each indicator of the Framework are currently being captured 
and uploaded in the LEAP section of the DPS Online Learning Center 
(Moodle).
    A screen shot showing examples of support offerings available on 
the DPS Online Learning Center can be seen below.
LEAP System and professional development supports
            Overview: The multiple measures in LEAP
    The district and the DCTA have worked in collaboration with DPS 
teachers and school leaders to develop a new teacher performance 
assessment system. Through their work on Design Teams, teachers and 
principals applied the guiding principles from the focus groups to 
develop recommendations for a meaningful system of observation, 
feedback, support and evaluation for teachers. This is what we now call 
LEAP--Leading Effective Academic Practice.
    LEAP provides teachers with additional feedback and support so they 
can continue to learn and grow professionally. Teachers want to be the 
best they can be for their students and our students deserve nothing 
less than GREAT teachers.
Multiple measures
            Student Outcomes: All Students are Capable of Learning and 
                    Growing
    This component of LEAP is still in development and will not be part 
of the LEAP pilot.
    When taken into account with other measures of teacher performance, 
looking at student outcomes is a way to measure the direct impact of a 
teacher on student achievement. Student outcomes provide a full picture 
of the learning that results from teacher actions over the course of a 
year.
    When fully developed, Student Outcomes will comprise 50% of a 
teacher's evaluation. We will be using multiple measures of student 
performance data rather than a single data source and are committed to 
using, in as many instances as possible, assessments that are already 
being used to inform instructional practice.
    As we continue to develop the Student Outcomes aspect of LEAP, we 
are considering the following:
                      student assessment criteria
    1. Multiple sources of data
    2. Growth
    3. Summative--external and internal
    4. Formative--consistent and accurate scoring across district
    5. Alignment to standards, scope, and sequence
    6. Increased emphasis on objective measures
    7. English and Spanish options
    8. School / team accountability
    9. Transparent formula
    10. Timeliness in administration and results
            Principal Observation: Feedback From Your School Leader
    The Principal Observation measure in LEAP is fully developed and 
in-scope for the LEAP pilot.
    Historically, principals have played an important role in 
evaluating and supporting teachers in their schools. This does not 
change with LEAP. Observation and feedback provided by school 
principals remain an important aspect of teacher evaluation. With LEAP:
    <bullet> Principals are receiving extensive training on the DPS 
Framework for Effective Teaching, consistent rating (inter-rater 
reliability), and giving meaningful feedback.
    <bullet> Principals will conduct classroom observations using the 
DPS Framework for Effective Teaching. Teachers will receive two 
principal observations during the 2011-12 LEAP pilot.
    <bullet> Principals will provide teachers with post observation 
feedback, including insight on areas of strength as well as growth 
opportunities. Teachers will use this feedback to select from a variety 
of differentiated professional development offerings, all aligned to 
the Framework for Effective Teaching.
            Peer Observation: Third-Party Feedback With First-Hand 
                    Knowledge
    Peer Observation is part of the LEAP system because there is 
tremendous value in teachers receiving honest, open feedback from a 
peer or colleague who has a similar content expertise.
    The Peer Observer role is a new position to DPS but one that has 
been used effectively in school districts across the country for a 
number of years. Peer Observers are fellow teachers who have been hired 
specifically for this role because they are recognized for their 
experience and expertise in content, classroom instruction, student 
achievement, and best practices.
    Peer Observers will be matched as closely as possible to the 
content or grade level of the teacher they are observing so they can 
provide feedback and support that is specific and relevant. Peer 
Observers will provide a third-party, outside perspective combined with 
first hand experience with the realities of teaching.
                  in relation to principal observation
    <bullet> Principals and Peer Observers will both use the DPS 
Framework for Effective Teaching when gathering observation data and 
will also use the same feedback protocol to ensure consistency.
    <bullet> Both the principal and peer observations will provide 
targeted feedback about how teachers are performing against the 
standards in the Framework for Effective Teaching and will help promote 
teacher growth and development.
    <bullet> Peer observation is not in isolation from observations 
done with the principal, but simply adds data points upon which the 
principal and teacher can review to make decisions about next steps 
with practice.
    <bullet> Peer observation allows for more opportunities for 
teachers to receive feedback.
            Collaborative Professionalism: A Teacher's Contributions to 
                    Their Team and School
    This component of LEAP was in development during the spring 2011 
LEAP pilot. It will be ready for the 2011-12 district-wide LEAP pilot.
    Professional Collaboration represents the offstage domains--what a 
teacher does outside of the classroom that helps determine their 
effectiveness--of the DPS Framework for Effective Teaching.
    Examples include:
    <bullet> Maintaining student records (student progress)
    <bullet> Communicating with families
    <bullet> Self-accountability for student growth
    <bullet> Reflection
    <bullet> PLCs
    <bullet> Teacher leadership
    <bullet> Collaboration with colleagues
    <bullet> Collaboration with community
    <bullet> Pursuing opportunities for professional growth
    <bullet> Content & pedagogical knowledge
    <bullet> Knowledge of students
    <bullet> Identifying key outcomes
    <bullet> Knowledge of resources/materials
    <bullet> Integrating materials, resources, tools, technology
    <bullet> Designing coherent instruction
    <bullet> Creating student assessments
    <bullet> Use of data in planning
            Student Perception: Students Know When They Have A Great 
                    Teacher * * *
    This component of LEAP was introduced to the spring 2011 LEAP pilot 
schools in April.
    Student Perception Surveys are important because they allow student 
voice to be part of the evaluation process.
    DPS is one of seven districts participating in a national research 
study called Measures of Effective Teaching (MET) project. The research 
findings from the MET project are informing our approach to this 
component of LEAP because MET includes a Student Perception Survey. 
Initial MET findings (released in December, 2010) indicate that:
    <bullet> The average student knows effective teaching when he/she 
experiences it.
    <bullet> Student perceptions can help identify effective teachers 
and point to specific aspects of teacher practice needing improvement.
    <bullet> Valid teacher feedback need not be limited to test scores 
alone.
    <bullet> By combining different sources of data, it is possible to 
provide diagnostic, targeted feedback to teachers who are eager to 
improve.
    DPS will be using research-based student perception surveys 
developed by Tripod. More on Tripod student-perception surveys:
    <bullet> Developed by Harvard Professor Ron Ferguson
    <bullet> The framework emphasizes an instructional ``tripod'' of 
content knowledge, pedagogical skill and relationships
    <bullet> Tripod surveys have been used in hundreds of schools and 
thousands of classrooms in the U.S. and abroad, as well as in the 
recent MET study
    <bullet> Includes measures of teacher effectiveness and student 
engagement, from the student perspective
            Professional Development Alignment: Balancing Support with 
                    Accountability
    DPS is dedicated to building a path that helps develop new 
teachers, ensures that all teachers continue to grow professionally, 
and rewards and recognizes great teachers throughout their careers.
    LEAP helps teachers recognize areas of strength in their teaching 
practice and also helps identify growth opportunities. Once growth 
opportunities are identified, teachers are able to access 
differentiated professional development offerings which are aligned to 
the Framework for Effective Teaching. DPS is creating a variety of 
different types of high quality professional development to ensure 
teachers can access the types that are most relevant to their 
individual needs and interests.
    Teachers and principals are able to work together to identify 
targeted professional development resources and focus a teacher's 
development on those opportunities that will have the most direct 
impact on a teacher's practice and student learning.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    Chairman Kline. Thank you, Mr. Boasberg.
    Mr. Cicarella, you are recognized.

            STATEMENT OF DAVID CICARELLA, PRESIDENT,
                NEW HAVEN FEDERATION OF TEACHERS

    Mr. Cicarella. Yes. Thank you.
    My name is David Cicarella. I am the president of the New 
Haven Federation of Teachers; and on behalf of the NHFT and its 
national federation, the American Federation of Teachers, I 
want to thank you for this opportunity to speak about our 
collective efforts to improve student learning and strengthen 
the teaching profession in New Haven.
    Our schools were facing the same challenges as many school 
districts in the country. This included the need for more 
meaningful parental involvement, comprehensive wraparound 
services for the most at-risk students, and, yes, a better way 
of evaluating teachers and providing them with the ongoing 
supports they need to do the best for their students.
    The situation in New Haven was exacerbated because the 
relationship between the mayor and the superintendent and the 
local union was often acrimonious. Teachers certainly were not 
satisfied with a system that failed to provide any meaningful 
supports or feedback to help them develop their expertise and 
maximize their capacity to improve student learning.
    We knew there was no way to improve our lowest-performing 
schools without involving teachers. Districts nationwide were 
looking at how best to improve teaching and learning by 
incorporating a more robust teacher evaluation system.
    In New Haven, the mayor, superintendent, and our local 
union made a decision to work collaboratively through the 
existing collective bargaining process. We ultimately were able 
to negotiate a contract that, in addition to wages and 
benefits, would lay the groundwork for a breakout model of 
urban school reform, one that values and welcomes teacher voice 
in all key decisions.
    Now, it is incredibly significant that both the national 
and State representatives from AFT were active partners, and 
they were completely welcomed by the New Haven School District. 
The contract was hailed in our local media as, quote, ``a 
first-in-the-nation agreement between a city and a teachers 
union to work together to change the way public schools work.''
    I think it is also significant to note that the contract 
was ratified overwhelmingly by our members by a vote of 855 to 
42. The new contract was ushered in with such strong support 
because the process that led up to its passage was very 
collaborative and it valued input from the teachers about the 
district's reform plans. Because the district involved the 
teachers in such a meaningful way, there was a tremendous 
amount of buy-in from the teachers.
    One of the reform initiatives we adopted was a new system 
for evaluating our teachers. The plan included multiple 
measures of professional performance and real supports tied to 
professional development. Now, what is key here is that we 
didn't just build a teacher evaluation plan that acts as a 
sorting mechanism to tell us who is doing a good job and who is 
facing difficulty. Instead, we created a system that focuses on 
the continuous support and development of all teachers, those 
struggling and those doing a good job. All teachers benefit 
from a goal-setting conference in the beginning of the year and 
at least two evaluation and development conferences during the 
course of the year, with additional conferences provided for 
teachers identified as needing improvement.
    The annual goals that are drawn up in these conferences 
center on the three components of our teacher evaluation plan: 
student learning, absolutely; teacher instructional practice; 
and professional values. Every element in the evaluation is 
mutually agreed upon; and when it comes to indicators of 
student progress, the teachers and evaluators are encouraged to 
use multiple measures of assessment that include standardized 
State tests, district assessments, student portfolio work, and 
teacher-developed assessments.
    Instead of instituting top-down reforms with no teacher 
input, we were able to utilize the collective bargaining 
process to ensure that teachers are heard and respected. 
Collective bargaining is much more than a process to ensure 
workplace fairness and give workers a voice in their jobs. It 
is a tool that the teachers and school districts can use to 
drive real reforms aimed at improving both teaching and 
learning.
    We are just finishing the first year of the implementation 
of our new plan. From the outset, we have collaborated on 
everything--not always agreed, but certainly collaborated.
    The commitment to work together has led to many positive 
outcomes, not the least of which is increased community 
support. Under the New Haven Promise program, funded in part by 
Yale University, eligible students graduating from every New 
Haven high school will receive full tuition to a public college 
or university in Connecticut.
    In New Haven, teachers have no problem being held 
accountable or sharing responsibility, as long as we are 
provided with an agreed-upon, transparent set of standards and 
a process for evaluation that includes student achievement, 
classroom practice, and professional values. Our collaborative 
work in New Haven has created a professional culture whereby 
teachers and administrators work side by side, channeling their 
energies to create a system that puts student learning front 
and center.
    Thank you.
    [The statement of Mr. Cicarella follows:]

           Prepared Statement of David Cicarella, President,
                    New Haven Federation of Teachers

    Good morning Chairman Kline, Ranking Member Miller and members of 
the committee. My name is David Cicarella, and I am the president of 
the New Haven Federation of Teachers (NHFT), an affiliate of the 
American Federation of Teachers (AFT). The NHFT represents more than 
1,600 teachers.
    Thank you for this opportunity to speak about our collective 
efforts in New Haven, Conn., to improve student learning and strengthen 
the teaching profession through, in part, our development of a 
comprehensive teacher support and evaluation system in the district.
    New Haven schools were facing the same challenges many school 
districts in the country are facing today: Many of our students were 
not reaching their potential. As in all cases, a variety of factors 
contributed to that situation, including the need for more meaningful 
parental involvement, comprehensive wraparound services for the most 
at-risk students and, yes, a better way of evaluating teachers and 
providing them with the ongoing supports they need to do the best for 
their students. The situation was exacerbated because the relationship 
between the mayor and superintendent and our local union was often 
acrimonious, and was characterized by distrust and disrespect on both 
sides.
    Teachers certainly were not satisfied with the status quo: a system 
that failed to provide any meaningful supports or feedback to help them 
develop their expertise and maximize their capacity to improve student 
learning. New Haven did not have in place processes for turning around 
low-performing schools or for supporting and evaluating teachers. We 
knew there was no way to improve our lowest-performing schools without 
involving teachers and giving them needed supports.
    However, there were few good models that provided guidance. 
Districts nationwide were looking at how best to improve teaching and 
learning by incorporating a more robust teacher evaluation system as 
part of that strategy. In New Haven, the mayor, superintendent and our 
local union made a decision to work collaboratively--through the 
existing collective bargaining process. Keeping collaboration and the 
need for teacher input in mind, the NHFT negotiating team took an 
aggressive position on evaluation (including the need for teacher 
involvement and multiple measures of student achievement), turnaround 
schools and other thorny issues in order to shape the agenda and drive 
the final product toward solutions that are good for kids and fair for 
teachers.
    We incorporated the resources and expertise of our national union, 
the AFT, and its affiliate locals. We ultimately were able to negotiate 
a contract that, in addition to wages and benefits, would lay the 
groundwork for a breakout model of urban school reform--one that values 
and welcomes teacher voice in all key decisions. It is incredibly 
significant that both the national and state representatives from AFT 
were active partners and completely welcomed by the New Haven school 
district representatives.
    The contract, which our members ratified by a vote of 855-42, was 
hailed in the local media as ``a first-in-the-nation agreement between 
a city and a teachers union to work together to change the way public 
schools work.''
    One of the reform initiatives we adopted was a new system for 
evaluating our teachers. The plan included multiple measures of 
professional performance and real supports tied to professional 
development. What is key here is that we did not just build a teacher 
evaluation plan that simply acts as a sorting mechanism to tell us who 
is doing a good job and who is facing difficulty. Instead, we created a 
system that focuses on the continuous support and development of all 
teachers--those struggling and those doing a good job.
    Under the new system, individual teachers and their evaluators meet 
each fall to set personal professional goals. This is the centerpiece 
of the new evaluation and development system--regular, substantive and 
collegial conferences between each teacher and his or her assigned 
instructional manager. Each teacher now has a single instructional 
manager who is accountable for that teacher's evaluation and 
development.
    The goal of the evaluation and development conferences is to focus 
teacher performance conversations around student learning, provide 
comprehensive feedback (including all elements of teacher evaluation) 
to each teacher, and set a defined plan of development opportunities 
for the teacher. These conferences are the anchor of the rest of the 
evaluation and development process, and the foundation of the 
professional relationship between teacher and instructional manager. 
All teachers benefit from a goal-setting conference in the beginning of 
the year and at least two evaluation and development conferences over 
the course of the year, with additional conferences provided for 
teachers identified as needing improvement.
    The annual goals that are drawn up in these conferences center on 
three important areas:
    <bullet> Student performance outcomes measured by growth in student 
learning and attainment of academic goals;
    <bullet> Teacher instructional practice in the domains of planning 
and preparation, classroom practice, and reflection and use of data; 
and
    <bullet> Teacher professional values addressing a set of 
characteristics including professionalism, collegiality and high 
expectations for student learning.
    Every element in the evaluation is mutually agreed upon, and when 
it comes to indicators of student progress, teachers and evaluators are 
encouraged to use multiple measures of assessment that include 
standardized state tests, district assessments (many of which are 
conducted quarterly as opposed to annually), student portfolio work and 
teacher-developed assessments. All are valuable and provide a full, 
more encompassing measure of student academic growth and achievement.
    The new system ranks teachers on a 1-5 scale: Those receiving a 
final summative rating of 5 will be considered for teacher leadership 
positions, while those receiving a score of 2 or below will be 
supported with a tailored improvement plan aimed at helping them 
receive a minimum score of 3 (or ``effective''). Our goal is to have an 
effective teacher in every classroom.
    Our members ratified this contract overwhelmingly for the following 
reasons. First, instead of instituting ``top-down'' reforms, with no 
teacher input, we were able to utilize the collective bargaining 
process to ensure that teachers are heard and respected. Collective 
bargaining is a process that ensures workplace fairness and gives 
workers a voice in their jobs. But it is much more. It is a process 
that teachers and school districts can use to drive real reforms aimed 
at improving both teaching and learning. For teachers in New Haven, 
instituting the changes in evaluation and giving teachers a greater say 
in decision-making at the school level means increasing their 
confidence in the system and the supports they need to be effective in 
the classroom.
    We are just finishing the first year of implementation of our new 
plan and so far, so good. We have established a citywide teacher 
evaluation committee consisting of six teachers selected by the union 
and six administrators selected by the district. From the onset, we 
have collaborated on everything, even these choices. We share our 
selections and allow every committee member to comment on them--all 
prior to making our choices public. The citywide committee met over the 
course of the entire year to complete the system. Despite the 
painstaking detail, it is straightforward with little room for 
ambiguity.
    In addition to the citywide committee, we established a ``working 
group'' that allows for every teacher in the district to volunteer to 
participate and have input into the evaluation system. Participating 
teachers brought their own questions and concerns to the discussion, as 
well as those from colleagues back in their schools. Principals were 
trained in the evaluation system over the summer, and teacher 
representatives were invited to address the initial training. This sent 
a clear message that the evaluation system is very much a joint effort 
that is supported by all parties. I was invited to address district 
administrators at their initial training. I was warmly received, and it 
was a positive experience.
    The lessons learned from our experience in New Haven is that 
teachers have no problem being held accountable, or sharing 
responsibility, as long as all are provided with an agreed-upon, 
transparent set of standards and a process for evaluation that includes 
student achievement, classroom practice and teacher professional 
values.
    Our commitment to work together has led to many positive outcomes, 
not the least of which is increased community support. Yale University 
has made a commitment of $4 million a year for the next four years to 
pay up to $8,000 annually to cover the cost of a student's enrollment 
at one of the state's public colleges or universities, or $2,500 at a 
private college. Full grants will be given only to students who have 
been in the New Haven Public Schools since kindergarten, and will be 
prorated for those entering later.
    No two school districts in our nation are alike, and I do not 
pretend to think that our plan will work in all districts. However, I 
do know that most school districts do not have good evaluation systems 
in place--ones that focus like a laser on boosting student performance 
through a process that prioritizes the continuous support and 
development of their teaching force.
    I cannot stress enough how critically important a valid, reliable, 
transparent, and ongoing teacher development and evaluation system is 
to the health of our schools and our students' ultimate success. In the 
absence of such a system, teachers and administrators are left to 
wonder what works and what doesn't work, or how and how best to inform 
and improve instruction. We need to work collaboratively at all 
levels--from local school districts to Congress and everywhere in 
between--to establish the conditions that our children need to succeed 
and our teachers need to teach.
                                 ______
                                 
    Chairman Kline. Thank you, sir.
    Ms. Walsh, you are recognized.

              STATEMENT OF KATE WALSH, PRESIDENT,
              NATIONAL COUNCIL ON TEACHER QUALITY

    Ms. Walsh. Chairman Kline, Ranking Member Miller, and 
members of the Committee on Education and the Workforce, thank 
you very much for your invitation to participate in this 
hearing today.
    My name is Kate Walsh, and I am the president of the 
National Council on Teacher Quality. NCTQ is an organization 
that advocates for a broad range of teacher policy reforms at 
the federal, State, and local levels aimed at increasing the 
number of effective teachers in our schools.
    As Mr. Miller and Mr. Kline both pointed out in their 
remarks, no school-based factor is more important in 
determining their achievement gains than their teachers. Not 
class size, not access to technology, not per student spending, 
not many of the other things that States and school districts 
pour money into in the name of education reform that fail to 
improve teacher effectiveness.
    In fact, if you look at school spending, while it has 
increased at a rapid rate, very little of these additional 
resources have been directed at improving teacher quality. Over 
the last four decades or so, per-student inflation-adjusted 
spending has soared, increasing by 2.6 percent a year on 
average. But it hasn't been spending on teacher pay that has 
driven that increase. Such spending accounts for only a 
fraction of the annual increase in actual education spending.
    Look at the patterns of spending on resources that are 
dedicated to teachers, such as Title II, for example, the 
federal funds targeted specifically to teacher quality under 
ESEA. For 2009-2010, the U.S. Department of Education reported 
that the vast majority of the funds, that is 42 percent, were 
used for nonspecified professional development activities, with 
spending to reduce class size coming in a close second, at 36 
percent. Only 5 percent of those funds were reportedly used for 
promoting teacher quality. Given that research shows reductions 
in class sides are expensive, with little or no systematic 
relationship to improvements in student achievement, and 
typical professional development programs are poorly designed, 
it is not surprising that Title II, in spite of that annual $3 
billion investment, has largely been ineffective at generating 
the kind of reforms that we all are seeking.
    At the foundation of current efforts to improve teacher 
quality are initiatives to develop fair and reliable teacher 
evaluation systems that measure teacher effectiveness in the 
classroom. As of 2010, we know that 16 States require that 
teacher evaluations are significantly informed by student 
achievement and growth; and 10 States, including Tennessee, 
require that student achievement growth is the preponderant 
criterion in teacher evaluations. That is to say that teachers 
cannot be rated as effective unless they meet student 
achievement or growth targets.
    Already in 2010, we have seen a huge wave of reforms. Four 
States--Colorado, Delaware, Oklahoma, and Rhode Island--have 
put in place State laws or regulations that require evidence of 
student learning to be the preponderant criterion for granting 
tenure.
    But I would like to emphasize that these 2010 data are 
likely catching just the beginning of the wave of change. We 
won't be surprised if the number of States adopting policies to 
include student achievement and teacher evaluations and alter 
their tenure policies could as much as double by the close of 
2011.
    Still, though, the majority of States does not require 
annual evaluations of all veteran teachers, and most still fail 
to include any objective measures of student learning in the 
teacher evaluations that they do require. In all but a small 
handful of States, teachers are granted tenure with no regard 
to how effective they are with students in the classroom.
    There are many other critical areas that need to be 
addressed. I would like to turn my attention now to the quality 
of preparation of the nation's teachers. Every year across this 
country about a quarter of a million people enter the teaching 
profession for the first time. Almost all of them are prepared 
in the Nation's schools of education, which have until now 
managed to avoid the reform spotlight. I am proud to report 
that NCTQ, in partnership with U.S. News & World Report, well 
known for its ratings of the nation's higher education 
institutions, has launched a review of the quality of each of 
the nation's 1,400 education schools. This has never been done 
before, in spite of many previous efforts, including one by the 
U.S. Congress even 5 years ago.
    Some higher education institutions are welcoming this 
opportunity to have their programs evaluated, seeing the 
feedback that we will be providing as essential for making 
long-needed improvements in these programs. But the majority of 
institutions in the United States, unaccustomed to scrutiny, 
have organized a national boycott to block our work, refusing 
to provide us with the basic data that we seek. But we are 
joined by over 40 foundations across the United States who have 
provided funding for this effort and the endorsement of 10 
State school chiefs, dozens of school district superintendents, 
and a host of education advocacy organizations.
    What we are rapidly seeing is an unfortunate battle between 
teacher preparation programs and their own clients in K-12 
education. An effective teacher in every classroom is not a 
far-fetched proposition. But a serious effort to cultivate 
highly effective teachers requires us to take a hard look at 
current practices and have an honest dialogue about the full 
range of policies needed to transform the profession. We need 
to attend to how to identify, recruit, compensate, reward, and 
retain more effective teachers, and especially to growing more 
effective teachers from the start.
    Thank you.
    [The statement of Ms. Walsh follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Chairman Kline. Thank you, Ms. Walsh.
    I want to thank all of the witnesses for your testimony.
    We will move now into questions, and I will start.
    Let me start by saying I think that it is important we 
heard from Mr. Cicarella and from Mr. Boasberg and Mr. Huffman, 
I think in different ways, that the systems being put in place 
are not only useful in evaluating teachers for perhaps 
retention or promotion or pay but giving real-time feedback to 
the teachers on how they are doing, which enables them to do a 
better job.
    Let me start with Mr. Huffman. When you were trying to 
develop the value-added metrics for the nontested subjects like 
art and music classes, you said that you used a school-wide--
some sort of school-wide assessment. Can you tell me how you 
put that together? How does that work if you are just an art 
teacher? I don't mean to say ``just an art teacher.'' Apologies 
to all the art teachers out there. If you are an art teacher, 
how does that work?
    Mr. Huffman. One thing I have learned on this job is there 
are a lot of art and music teachers, because they come talk to 
me every single time I go speak.
    So, right now, the way it works is for the 35 percent of 
your score that has to be based on student growth, instead of 
getting an individual assessment--so if you taught fifth grade, 
for instance, you would get a value-added score from the fifth 
grade assessments--in art, you would get the school value-added 
score. And the school value-added score is a composite based on 
all of the tested subjects and grade levels. So if you taught 
elementary school art, then the third, fourth, fifth grades 
across their subject areas, that all gets compiled into a 
school, that provides a school value-added score. And that is 
what would be used.
    And what we are trying to figure out--I think this is a 
very hard thing to figure out what the right answer is. What we 
are trying to figure out for next year is how we can field test 
some different assessments across different subjects and grade 
levels that are not currently tested and make them available as 
individualized assessments.
    But I will tell you that my own personal view is I think 
there are situations where it makes absolute sense to try to 
come up with an individual value-added score. So, for instance, 
in secondary foreign language I think there is a way to assess 
how much Spanish did children learn and to figure out the 
value-added.
    But I also think that it is appropriate in some cases to 
use school-wide value-added data. First, because we don't want 
to test absolutely everything. But, second of all, because in 
many cases teachers have an impact on the entire school. So if 
you are an art teacher, you only get kids for one class a week, 
but you have most of the school coming in, and you are 
contributing not just to the art education of those children 
but also to the school climate. So, in that context, I think it 
is actually appropriate; and I think teachers and principals 
have mixed views on what the right answer is here.
    Chairman Kline. So, under the current system, you have got 
65 percent of this evaluation is not--65-35 is not the school-
wide assessment. And so have you looked at changing those 
percentages or is that not possible under your system?
    Mr. Huffman. Well, right now, it is enshrined in State law. 
So the State law lays out the 35 percent value-added, 15 
percent other academic achievement, 50 percent qualitative.
    We also have three additional systems that are being 
piloted by other districts this year. So they did field tests 
last year, and they asked if they could use these systems this 
year. They met the State law. And so we are going to watch how 
those systems work as well. One in Memphis sounds more similar 
to what Tom was describing about Denver. And I think it is 
going to be very interesting to gather all the data and see at 
the end of the year what people liked, what seemed to work, 
what the range of distribution of scores were.
    Chairman Kline. Okay. Thank you.
    I am going to run out of time here pretty quickly, so let 
me go to Mr. Boasberg.
    On the LEAP program, you are defining teacher 
effectiveness. For example, how are special education teachers, 
special educators evaluated under your system?
    Mr. Boasberg. Sure. Thank you.
    Special education is an absolute critical mission of the 
Denver Public Schools, and one of the wonderful things about 
the LEAP program is we have peer observers who coach and give 
feedback to teachers. So, for example, we have master special 
education teachers who then go observe and give feedback to our 
special educators who are in their practice in the classroom.
    But special educators are observed and assessed under the 
same framework, where it is both the principal is observing and 
giving feedback, peers are observing and giving feedback, there 
is student perception of the educators, as well as we are 
looking at growth in their students' achievements.
    Now, clearly, if you are looking at one of our self-
contained classrooms for our highest and most severely disabled 
kids, that is going to be a little bit different. But the 
overwhelming majority of our special education students are 
included with our mainstream students in mainstream classrooms, 
and we have very high expectations and very high-level supports 
for special education students. We try and provide the same 
level of support and coaching and work with our special 
educators on the same basis as we work with our nonspecial 
educators.
    Chairman Kline. Thank you very much. My time has more than 
expired.
    Mr. Miller.
    Mr. Miller. Thank you very much, and thank you for all of 
your testimony.
    I note that there are certain consistencies. We have three 
different systems here, but there are certain consistencies in 
terms of how you chose to improve, hopefully, the teaching 
experience for teachers and the learning experience for the 
students. And the idea that this was done with everybody 
sitting at the table in one mixture or another that your 
systems chose. And the use of multiple measures, and you have 
given different weight to those measures in the three different 
systems that you have here. And a good deal of emphasis placed 
on additional training and professional development.
    But the three of you aren't representative of the United 
States. I guess this is my concern. I think that at this 
particular moment we are in the most dynamic education reform 
environment that I have seen in my public life. And so I worry 
about losing the moment, as we do in politics sometimes. And 
that moment is, how do we make sure that these types of 
evaluation systems are extended across the country?
    We know there is resistance in a number of States, we know 
there is a minimal pulse sticking out there sort of suggesting 
someday we could be for this, and yet I wonder why we would 
continue--certainly in school improvement, if we have these 
four models, why we are not making sure that school improvement 
funds are tied to an evaluation system.
    Again, I could take any of your three, I think. But that is 
not important. But the point is, why are we continuing to 
pretend like we can have these turnaround models if we don't 
change that teaching and learning environment and make it a 
professional workplace for teachers and a professional learning 
space for the students? Or why would we continue to make Title 
II grants that aren't tied to this kind of change? I mean, we 
are just funding the past.
    And I don't want to use any more of my time. I want to hear 
from you. Let's start with whatever order you want.
    Mr. Boasberg. Sure. I will start, and please pitch in.
    I agree with you strongly. Denver has been one of the 
districts most active in the country in terms of trying to 
improve and turn around our lowest-performing schools. And at 
the heart of that is indeed trying to work to have the best 
possible school leader and provide the time and resources and 
ability to better develop and have stronger teachers. So, for 
example, in our schools that are receiving money for school 
improvement grants, they have a longer school year, they have a 
longer school day. All the teachers voted to work a 9-hour 
school day.
    Mr. Miller. Let me just ask you. I know what you are doing. 
Can you imagine us continuing to give money where these changes 
aren't brought about?
    Mr. Boasberg. I want to be hesitant to tell you how to do 
your job. But I do think, as a taxpayer, it is fair to say that 
I think when the federal government gives money, and quite a 
bit of money, to have very high standards. We as a school 
district have very high expectations of our students and our 
professionals, and I think so should the federal government 
have very high standards of districts.
    And when money is coming in to have standards and 
accountability for the use of that money around having 
programs, around effective teachers, and having effective 
programs to turn around low-performing schools, to provide 
equity for our most disadvantaged students. I think that is a 
very appropriate role of the federal government.
    Mr. Cicarella. I just perhaps might add, in terms of the 
federal influence, I think I have to agree with you. It doesn't 
make sense to keep funding things that we know didn't work and 
continue do that. Perhaps where you gentlemen and ladies can 
come in is, in terms of federal law, you never want to be heavy 
handed with overly prescribing things, yet, at the same time, 
perhaps some things that we could do. There could be an 
incentive for the type of collaboration that has existed. You 
know, encourage some local bargaining to continue. Encourage 
professional development to be tied to teacher evaluation 
plans. And that is for all teachers, not just those that are in 
need of improvement. Because even teachers that are effective, 
all teachers need help in different areas, even those that do a 
pretty good job. And the teachers and school districts, they 
really perhaps should have flexibility to determine that 
correct mix, a little different from Denver to New Haven.
    But certainly, to answer your question, in terms of federal 
influence and what you should or shouldn't do, again, I 
hesitate to tell you that, but I would agree. I would think 
that doing what we did in the past, you know, we do need to 
make some changes, and I think we have made a good start in a 
lot of places, and we do need to replicate those.
    Mr. Huffman. My only addition would be that I think there 
has to be a lot of flexibility for States and districts to 
figure out what their plans are. We are excited about our plan, 
but I think the most important thing conceptually with all 
these evaluation plans is that there is an actual range of 
distribution. Because, of course, we had some level of 
evaluation before. It is just that 95 percent of the teachers 
were deemed to be outstanding.
    So there has to be a range of distribution. There have to 
be multiple things, including student achievement, that factor 
into it. And there has to be something then that happens as a 
result of the evaluation, something that happens positive in 
the form of feedback and professional development but also some 
level of incentives and consequences for the outliers on either 
pole of the system. And, beyond that, though, I don't think we 
have figured out what the perfect system is. I think we need a 
lot of flexibility.
    Chairman Kline. The gentleman's time has expired.
    Dr. Roe.
    Mr. Roe. I thank the chairman.
    And if you were evaluating an art teacher and she worked on 
mine, she or he would be a failing teacher if I had to pass 
art.
    I want to mention two people, Ms. Chiles and Ms. Smith, who 
were my first grade teachers. And there is no question that the 
first 3 or 4 years of my life, or even longer, I had great 
teachers. Not a great school building. We had six grades in one 
room and two in the other. We didn't have indoor plumbing or 
running water, but we had great teachers. And I think that and 
great principals, I think that leadership at the top.
    The question I have, I guess, in going back to Tennessee, 
and we are trying to figure this out, and trying to define a 
good teacher is extremely difficult to do. We all know what 
they are, but it is like beauty. It is just difficult to put a 
numerical number on it.
    Let me give you an example. In the No Child Left Behind, 
one of my former patients is a good friend of mine. Every time 
she asks me to come to her classroom, I go. And so I went this 
year and read to the students. And as I was getting ready to 
leave, I said, well, how is he doing? And she said, well, he 
will be back with me again next year. I said, why is that? And 
she said, well, he has missed 60 days of class because his 
mother won't get up and get him out the door to school. So he 
is going to be held back.
    And Jan, my friend, Jan Lindsay, my friend, a great 
teacher, is going to be evaluated on the fact that the parent 
didn't get the child to school. How do you do that? And have we 
looked at the educational level of the parents?
    For instance, I know where my kids went to school, 
elementary school, a public school, the education level in 
those classes in the elementary school was plus five out of 
high school. Those are going to be successful teachers teaching 
those kids. Is that in the formula anywhere, where you look at 
the parents?
    Mr. Huffman. Thanks for the question.
    A couple of quick thoughts on that. So, one, with the 
value-added scores we have not seen that teachers teaching in 
the highest-need classrooms are disadvantaged in terms of the 
scores that they are actually getting. So there is a broad 
range. And there are some suburban schools that get great 
absolute scores, but their value-added scores actually aren't 
that good in terms of how far they have moved the kids.
    At the same time, I am proud to say that, as an alum of 
Teach for America, Teach for America and Vanderbilt have by far 
the highest impact on student achievement of any of the teacher 
providers in the State. And the Teach for America teachers are 
teaching in the highest-need areas, where they have the biggest 
challenges in terms of parents and families.
    Clearly, we have got to figure out how to get parents and 
families more engaged to help the education system, and one 
question is how you align interests. In Tennessee, one thing 
that they did, quickly, is they passed a law that made student 
grades, a portion of student grades, I think it is 25 percent, 
contingent on their standardized test results. And the idea was 
to ensure that you didn't have students who simply just lay 
down on the job when it came to the standardized tests. 
Teachers felt strongly that they shouldn't be held accountable 
for something if the students weren't also going to have to 
take it seriously. And that is an example of aligning 
interests.
    Mr. Roe. Mr. Miller brought up a point a minute ago about 
how--my wife taught for 3 years in an inner city school in 
Memphis--and how you keep quality teachers in poor-performing 
schools. We have 50 percent of our educators drop out when they 
start college that don't end up being teachers, and then within 
5 years 50 percent of our teachers stop. And so we are losing 
all this input. How do you do that?
    And the question I have also--and this is to any of you who 
may have evaluated this--is in all this evaluation of the 
teachers, are you getting any push-back? I know Mr. Cicarella, 
he made a point teachers don't mind being evaluated. I never 
heard one that didn't mind being held to a standard. The 
question is, are they getting burned out by--do they look like 
this as overly intrusive into their classrooms?
    Mr. Cicarella. I can speak for New Haven, obviously. 
Myself, as a classroom teacher for 28 years, I mean, you do 
want to be evaluated; you want to be evaluated fairly. And our 
present system, even though, yes, there is a lot more 
accountability and responsibility, and consequential at the 
other end, perhaps, for some of us, but we accept that. As long 
as the evaluation system, you know, again, it is fair, we have 
some input into it, we prefer that.
    Because in the past, it was basically, I mean, the 
administrators would, you know, they would come in, and we 
would call them the drive-bys. They would come in, they would 
stay 5, 10 minutes, write something up, stick it in your 
mailbox. If it was good, no one complained. And if it was bad, 
we complained, but you couldn't do anything about it. I mean, I 
would go to hearings with teachers, personnel, and we would 
say--the teacher would say, ``But the principal is never there. 
These dates are--you know, that is not correct.'' The personnel 
director would look at the administrator, ``Are those dates 
correct? Is that your information?'' ``Yes.'' And it was 
accepted as gospel.
    I mean, it was a ridiculous system. It wasn't 
comprehensive. And that wasn't the case all over, but that was 
very pervasive, to a certain degree.
    So even though the system is not perfect, by any means, we 
like it, because it is very clear to us now that--you know, 
there has been nervousness about it, as well, because it is 
new, as anything is. But we do like we know exactly what is 
expected of us. The goals are mutually agreed upon, you know, 
with the administrator, so it is clear what I need to do.
    And it is not unreasonable--and my final comment is, as a 
teacher, I have those kids in September. It is not 
unreasonable, when June comes, that they should make some 
progress. I mean, that should be expected of me.
    Mr. Roe. Thank you, Mr. Chairman. I yield back.
    Chairman Kline. The gentleman's time has expired.
    Mr. Loebsack?
    Mr. Loebsack. Thank you, Mr. Chair.
    I really want to thank the panel. This has been really 
enlightening.
    I am married to a former teacher of over 30 years, so I 
take some personal interest in this. But, also, I come from 
Iowa, and we are in a situation in Iowa where we are not what 
we used to be. And the Governor just had a 2-day conference in 
Iowa, and I think it is clear that the system in Iowa does need 
some improvement. We have prided ourselves in the past on being 
among the best in the country, and we have slipped.
    And I think that, certainly, teachers are maybe the major 
part of this, but we have to think about parents. And I think 
it was important that that was mentioned. We have to think 
about principals, superintendents, school boards, the community 
generally. I think we have to take kind of a whole-child 
approach to this, as well. We have to think about counselors, 
school nurses, the whole milieu, if you will, of support for 
our students. And I am glad we are focusing on teachers today, 
but we can't lose sight of all these other things, these other 
people, these other factors that we have to take into account, 
too, I think, for us to have good schools.
    And I do want to ask you, Ms. Walsh, you said that you are 
now trying to evaluate schools of education, and you are 
running up against some resistance. But could you sort of lay 
out for us the different factors that you want to use for the 
evaluation process? Could you elaborate on that some?
    Ms. Walsh. Thank you. And I was just at the summit in Iowa 
and was very privileged to be there.
    What we are doing is applying 17 standards that look at 
both the content and pedagogical preparation of teachers. So we 
want to know if they are taught how to teach--if elementary 
teachers are taught how to teach reading; if they learn 
appropriate mathematics, because they have to lay the 
foundational skills in mathematics. We want to know if the 
education schools are appropriately selective and not just 
taking anybody. It is easier to get into an education school in 
the United States than it is to qualify academically to play 
college football, so we want to change that dynamic.
    Mr. Loebsack. Can I ask--I mean, that is a sweeping 
generalization. I mean----
    Ms. Walsh. No, that is not true for every ed school, but--
--
    Mr. Loebsack. Right.
    Ms. Walsh [continuing]. In the United States, it is easier 
to get into education school than it is to qualify to play 
college football.
    Mr. Loebsack. Okay.
    Ms. Walsh. That is absolutely the truth.
    Mr. Loebsack. Well, I would like to see some data on that 
from you, if you would.
    Ms. Walsh. I would be happy to show that.
    Mr. Loebsack. Thank you. Go ahead.
    Ms. Walsh. So we are looking at the student teaching, 
whether or not they place student teachers in classrooms with 
effective cooperating teachers, rather than just any teacher. 
We are looking at the special education training that teachers 
get.
    So it is a wide range--I would be happy to share with you 
the full set of standards, but it is a comprehensive list.
    Mr. Loebsack. Thank you. I appreciate that.
    Also, it was mentioned that principals--Mr. Huffman, I 
think you mentioned that principal evaluation starting this 
year in Tennessee. Do others on the panel have thoughts about 
that? Because, clearly, the principal is a very important part 
of the education enterprise; there is absolutely no doubt about 
that.
    Would you like to share, yeah, Rhode Island?
    Mr. Cicarella. Yeah. In fact, in New Haven, one of the 
things, when we set out to do the reform, is we wanted top-to-
bottom accountability. Teachers have no problem being 
accountable; we should be accountable, and we accept that. But 
so should the building principal, central office, as well. So 
we have systemic reform from top to bottom.
    So the teacher evaluation system is the one that got the 
most media attention in New Haven, and that is all very nice, 
but right next to it we created a new principal evaluation 
system and a central office, as well. So all three were 
revamped. And they are very, very similar. The same 1 to 5 
rating, same matrix is used for all three. What they are rated 
on is different.
    But that is a central piece of our reform effort, is that 
it has to be top-to-bottom accountability. And all three 
systems--teachers, principal, and central offices--evaluations 
were revamped completely.
    In fact, in terms of the collaboration, I sat on the 
principal evaluation committee, which was, you know, very 
strange, to be in a room working on the principal's evaluation, 
as a school--you know, as a teacher, obviously. But that is the 
way we did it. We wanted to make sure there was transparent 
input from everybody on both sides, whether it was the teachers 
evaluation system or the principals.
    Mr. Loebsack. All right.
    Mr. Boasberg?
    Mr. Boasberg. Yeah, so I fully agree. I mean, our 
principals have a high degree of accountability already. They 
are at-will employees. And we look very closely at a whole 
series of measures around their school, from student growth to 
parent satisfaction to student satisfaction to--we survey all 
of our teachers in the building to get very detailed 
information from the teachers about the performance of the 
school leader.
    We are also developing and will be rolling out this year a 
principal evaluation and feedback system that is fully aligned 
with the system for teachers. We think it is very important 
that those be fully aligned. And, as James said as well, it is 
not just principals but for every employee in the district, 
they are having multiple--at least one evaluation every year.
    I think it is important that there be a performance culture 
and ways to measure performance and provide feedback and 
coaching and also make personnel decisions based on that 
performance at every level of the school system--teachers, 
principals, district leaders.
    Mr. Loebsack. Superintendents.
    Mr. Boasberg. Superintendents, certainly.
    Mr. Loebsack. Right. Thank you.
    Chairman Kline. I thought we had a UC agreement here. The 
gentleman's time has expired.
    Dr. DesJarlais?
    Mr. DesJarlais. Thank you, Mr. Chairman.
    And thank you to our panel for appearing here today.
    Commissioner Huffman, you had mentioned a minute ago about 
your experience at Teach For America. Can you share with us a 
little bit about how this shaped your belief in the importance 
of a teacher evaluation system?
    Mr. Huffman. Yeah, thank you very much for the question.
    So, first of all, I think being a teacher in an inner-city 
school with lots of high-needs kids, the biggest thing that I 
learned was simply that all kids, regardless of their 
circumstances, can achieve at a high level if we, as adults, 
deliver the services that those kids deserve.
    And the other thing as it relates to teacher evaluation is, 
as with children, with adults there is a range of distribution 
of people's performance. And, certainly, what I saw in my own 
school and what I think--this is not unique to a Teach For 
America experience, but I had colleagues who were in there at 
6:30 in the morning, they were there at 6:30 at night, they 
were working hard, they were getting results for kids, and they 
were paid in lockstep with their colleague next-door who came 
from 8:00 to 3:00 and wasn't particularly effective. They were 
paid in lockstep, and they were evaluated in lockstep as well.
    And that was a system that, quite clearly, didn't make 
sense. It didn't make sense for anybody. And so, you know, I 
think I came to have a full appreciation for the need to treat 
adults like adults and call it like it is and make sure that 
that tied somehow to how our students were advancing.
    Mr. DesJarlais. Okay. Thank you.
    You also mentioned that Tennessee has started rigorous 
State-facilitated training sessions for district-level 
evaluators. Can you explain these training sessions in a little 
more detail and how they are going so far?
    Mr. Huffman. Yes. They have gone pretty well. So we have 
trained about 5,000 administrators. And the way it works is 
that district officials have to figure out how many people they 
are going to need in order to conduct the number of 
observations that they need. So it is principals, assistant 
principals, instructional leaders, and so on. And they come in 
for a 4-day intensive training.
    It has been run by TAP, who has created the rubric. So it 
is TAP experts who are coming in. There is a lot of videotape 
session, a lot of discussion, and a lot of analysis to try to 
norm people. The goal is that, across this rubric with 19 
different sections, that people would become normed around what 
does a 1 look like, what does a 3 look like, what does a 5 look 
like, and be able to distinguish among them.
    And the feedback that we have had has been extremely 
positive. I have actually read a number of emails and 
encountered a number of people out who said they went in 
skeptical--so these are principals saying, ``I went in 
skeptical. Another 4-day training, you know, another rubric.'' 
And they came out saying, ``This is going to help our teachers 
become better.''
    And, certainly, the field tests, that is the way the 
teachers felt, as well. Teachers, when they got feedback on the 
rubric, they said, ``I got helpful feedback, and I actually 
know what is expected of me.''
    Mr. DesJarlais. What are some of the potential problems 
that you have seen so far? And what do you plan to do about 
those?
    Mr. Huffman. Yeah, I think one of the big challenges on the 
observation side is just the range of distribution. We have to 
make sure that there is not grade inflation or grade deflation 
across different districts.
    One thing is that this is now tied to our tenure system. So 
Governor Haslam led the effort to pass meaningful tenure reform 
which turned tenure from a 3-year rubber stamp into a 5-year 
process where you have to score a 4 or a 5 on your evaluation 
in the last 2 years in order to get tenure. And I think that 
ups the stakes for making sure that there is consistency in 
application across districts.
    And one thing that we are doing, we have an online system 
that we are going to roll out, so we will see observation 
scores in real-time. So, for instance, in November, we would at 
the State level be able to see that this is the average 
observation score in county X and this is the average 
observation score in county Y. And if there is a massive 
difference and if that difference didn't correlate to actual 
student achievement results, we would be able to go into county 
Y and provide retraining and so on to reform the system.
    Mr. DesJarlais. Well, thank you. I certainly applaud your 
efforts.
    And I yield back the little bit of remaining time I have.
    Chairman Kline. I thank the gentleman for that.
    Ms. McCarthy, I think you are next.
    Mrs. McCarthy. Thank you, Mr. Chairman.
    And thank you, everybody, for your testimony.
    One of the themes that I seem to hear from all of you and 
through your testimony, obviously teacher evaluations are 
extremely important, but also professional development 
activities are very important.
    One of the things that we have noticed is a lot of the 
young teachers, graduates, new graduates, seem to go into lower 
grades. So they are the most inexperienced teachers teaching 
probably the students that probably need the best teachers.
    With the evaluations and with professional development, how 
do you work around that? How do you bring a young teacher who 
wants to be in that career--we had a hearing many, many years 
ago, and we had four or five teachers there, new graduates, 
into the lower grades. And each one of them felt like they 
should drop out because they did not feel that they were 
qualified to teach. They wanted to stay as a teacher, but they 
weren't having the professional development.
    So are you having, with what you are doing, the teachers 
very, very involved in professional development on where their 
weaknesses are and how can they improve so they can be even 
better teachers? Because they are the ones on the front lines. 
Even though you are principals or superintendents or 
commissioners, you have probably come through the ranks in some 
sort, one way or the other. I would like to hear those answers.
    Ms. Walsh. Well, I will start. I just want to make a clear 
point, that I would argue that no teacher should go into a 
classroom who hasn't been taught how to teach reading or do any 
of the activities that young children need. So I think that the 
first order of business should be what kind of preparation we 
provided that teacher before she walked into the classroom.
    Then, I think that school districts are spending an 
inordinate amount of money on professional development 
activities. Some are worthwhile, and some are not. So I think 
that, in the process of better evaluation systems, we are 
beginning to identify how to tailor the professional 
development to teachers' future needs. I think it has been very 
problematic, without the kind of comprehensive evaluation 
systems that are now being put in place, for school leaders to 
even know what a new teacher needs.
    Mrs. McCarthy. So, with that, how do the rest of you deal 
with teacher development to make sure that there are programs 
that are worthwhile for the teachers to participate in?
    Mr. Cicarella. In the new teacher evaluation system in New 
Haven, the teacher and the instructional managers sit down and 
they self-rate themselves on the rubrics, of all the different 
areas. So I want to make sure, one, there is not a disconnect. 
If I am a teacher and I think I do a terrific job in classroom 
management and the instructional manager, you know, principal, 
doesn't see that, you know--so it usually is a very good--it is 
a good tool to determine where are the weaknesses and then have 
some targeted and focused professional development.
    Because, too often, a lot of our money is spent on system-
wide things. And they are valuable, to a certain degree, but a 
lot of it, quite frankly, is wasted, because we march all 1,600 
teachers in New Haven to a professional development session, 
and we bring a consultant in, very high-paid, when perhaps 200 
or 300 of those folks would benefit from that.
    So our new evaluation system says that those areas of need 
are identified and agreed upon by the teacher and the 
principal. And then we will go ahead and target that and do 
less system-wide things and more either school-wide or even 
group-wide things--for example, classroom management. They 
would call in teachers that they have identified from the 
different schools in New Haven, and those teachers would attend 
those sessions.
    Mr. Boasberg. I think we recognize how extraordinarily 
challenging a profession it is, even for very experienced 
teachers. And for new teachers coming in, it is an enormously 
challenging job. And I think we have tried to address that in a 
series of ways.
    One is a recognition that, as Kate said, a number of our 
teacher preparation programs aren't where they need to be, in 
terms of truly preparing teachers to come in and be effective 
teachers from the beginning. So we have a multiplicity of areas 
where we try and recruit teachers from, both from our teacher 
schools of education, but Teach For America.
    We recently set up our own residency program, where high-
talented individuals come in for an entire year, are resident 
teachers in the classroom of master teachers to really observe 
and learn teaching practices and gradually take increased 
teaching responsibilities under the eye every day of that 
master teacher. And I think that program has been very 
successful in developing teaching practices among our young 
teachers.
    And I think part of this is, if you look at our system and 
other systems, there has often has been too much emphasis on 
content. And if you look at our system, our teachers often do a 
lot better on content knowledge than they do on the most 
challenging pedagogical skills--for example, around 
differentiation, to mean different students need developing 
academic knowledge, developing problem solving, innovation, 
21st-century skills. And I think one the things that we need to 
do and a lot of systems need to do a lot better is, yes, you do 
need to understand the content. I don't mean to demean content; 
content is important. But content is only one part of this, and 
have a much greater focus on the professional in-classroom 
skills that teachers need to be effective to meet the very 
diverse needs of the 20, 25, 28 kids who are with them every 
day.
    Chairman Kline. The gentlelady's time has expired.
    Dr. Bucshon?
    Mr. Bucshon. Thank you, Mr. Chairman.
    I was a surgeon previously, and I will make a few comments, 
and then I will have a question more related to how we get 
people to become teachers.
    Many physicians score well on standardized tests. Many have 
been in the top of their class. But ultimately, once you are in 
practice, the outcome of your patients is what is important. 
The best doctors are not necessarily those who score best on 
the test. And there is an art to the practice of medicine, as I 
believe there is in teaching.
    The people that know the best how you do as a physician are 
those in your local community--the nurses, the other people 
that work with you, as well as your patients and family. Again, 
in my view, this is applicable to teachers. And, ultimately, 
what counts is the success of students.
    That said, I think all of us here today have recognized 
that student success is a multi-factorial equation, of which 
quality teachers are a very important part of it.
    So my question really is to anyone, to all of you, is, what 
can we do to continue to convince our best and brightest 
students to become teachers? And what can we do to attract even 
more of our best and bright students to become teachers? I 
think this is a fundamental issue that we appear to be 
struggling with, as we are in medicine.
    Mr. Huffman. I will jump in, and I know Kate is chomping at 
the bit.
    But from my experience at Teach For America, one thing we 
can do is recruit them. It is fascinating to me that, 
basically, if you look at the way many schools of education 
operate, they hang out a shingle and hope the people come and 
apply to want to be a teacher. There is not a proactive effort 
to go and find the best people and make the case to them why 
teaching should be what they choose to do.
    And at Teach For America, it is hard work, but it is 
actually doable to go out and get tens of thousands of very 
talented people to say that they want to become a teacher. And 
it takes meeting with them, sitting down with them, explaining 
the value proposition, explaining the leadership opportunity, 
the chance to make an impact on the most pressing social 
justice issue in our country.
    And, frankly, I just think schools of education have punted 
on that. They have been willing to take who comes in the door, 
rather than go out and proactively seek people.
    Ms. Walsh. I would agree with everything Commissioner 
Huffman has said.
    I just want to add that I think that one of the reasons 
that teaching has become low status is because the preparation 
of teachers has become such low status. We know that half the 
people that graduate from an education program don't even get a 
teaching job, they don't apply for a teaching job. So you have 
to ask yourself, why is it that so many people are going to an 
education school with no intention of ever becoming a teacher? 
And I fear that, for too many of those individuals, they have 
gone into the education school because it may be the easiest 
program on the college campus to complete.
    If you compare that data with what Teach For America has 
managed to achieve, Teach For America has managed to convey 
very high status to getting into its program. That does not 
mean all that Teach For America does is look at test scores, 
but it is the first gate. You have to meet a minimum level. So 
it is quite an honor to make it through that first gate, and 
then you have to go through many gates after that.
    So the selectivity that that program has modeled for the 
rest of us on how to attract the best and the brightest is a 
crucial, crucial point. But I have to say that when I go out 
and speak with deans of the schools of education, they push 
back quite vehemently on the notion that they need to become 
far more selective about who gets into their programs.
    Mr. Cicarella. I would just say, I mean, in terms of 
teaching, I think we all agree, no one becomes a teacher--is 
not about money--no one becomes a teacher to get rich. That is 
never going to happen, and we know that. The motivation is very 
different.
    In terms of attracting them and keeping them, one of the 
problems we have, it is a demanding job, first of all, 
obviously. But they need to have some input, not be blamed. 
That is probably--I mean, some of them just--many of the 
teachers kind of throw up their hands, ``I am just not doing 
this. It is just not worth it.'' So we need to maybe get a 
shift of the attitude, that we are not going to blame the 
teachers. You have to be accountable, you have to be 
responsible, but this, you know, consistent blaming that if the 
students aren't scoring well and you are the teacher in front 
of the classroom, therefore it has to be your fault and you 
have to go.
    We need to be accountable, we need to be responsible for 
student learning, no question. But I think that is a big issue. 
A lot of the teachers just don't feel that they are valued. And 
then they just get to the point where it becomes too 
frustrating.
    Mr. Bucshon. Thank you.
    Chairman Kline. The gentleman's time has expired.
    Mr. Hinojosa?
    Mr. Hinojosa. Thank you, Mr. Chairman.
    Chairman Kline and Ranking Member Miller, thank you for 
calling this congressional hearing on education reforms.
    If we are to remain globally competitive, we must modernize 
the teaching profession and provide our nation's teachers with 
the support they need to build their knowledge and skills to 
grow in the field and advance their careers.
    In regard to teacher evaluation, accountability, and 
tenure, I strongly believe that these decisions should be made 
at the State and local level, with the full participation of 
teachers, drawing on their expertise and knowledge to improve 
teaching and learning.
    Today, I ask my colleagues to consider the work that high-
achieving nations such as Finland, South Korea, and Singapore 
have done to modernize and to build the capacity of their 
teaching workforce, as well as innovative teacher development 
and evaluation systems here in our country, in the United 
States. It is critical that teachers are given the opportunity 
to develop their expertise both as they enter the profession 
and throughout their careers.
    I would like to ask my first question to David Cicarella.
    Mr. Cicarella, I commend you and the New Haven Federation 
of Teachers for partnering with your local school system to 
develop valid, reliable, transparent, and ongoing teacher 
development and evaluation systems. It seems to me that this is 
the type of collaboration and leadership that our schools need.
    I read your testimony. You indicate that the New Haven 
Federation of Teachers contract was ratified by a vote of 855-
42 and hailed by the local media as a first-in-the-nation 
agreement between a city and a teachers' union to work together 
to change the way public schools work.
    What is unique about your teacher evaluation plan? How does 
it improve teaching and learning and prepare our students to be 
college- and career-ready? And the last part of that question 
is, why is it critical to have multiple measures of student 
achievement?
    Mr. Cicarella. I will start with the last piece first, the 
multiple measures.
    State tests--very often, we say, well, let's look at the 
State test and make that the sole factor in the teacher's 
evaluation. ``If the kids didn't learn the material and you are 
the teacher, it must be your fault.'' Well, one, the State test 
is too--the State tests were never, ever designed to evaluate 
teachers. They are designed to give us data so we can drive our 
instruction. Essentially, very simply, tell us what the kids 
know and what the kids don't know, and then we can adjust our 
instruction there. So they weren't created for that purpose.
    So what we do need is the multiple measures. So, yes, do we 
have to look at the State tests? Absolutely. I mean, they are 
important, they give us some good data, but it is just one 
piece. We don't want to look at a student and make an 
assessment of him simply by how he does one week on a test in 
March in Connecticut, for example. So that is why we need other 
measures of assessment that I referenced.
    The second reason is, in many districts, in New Haven, only 
22 percent of the teachers teach in subjects covered by our 
Connecticut Mastery Test and our comprehensive assessment test 
in high school. So even if we wanted to, even if you wanted to 
make that argument, ``Well, darn it, we are going to use those 
State tests because that is what we care about,'' you couldn't 
evaluate more than three-fourths of our teachers. And that is 
true in many parts of the country. So, from a practical 
standpoint, we need multiple measures, but also from a 
professional standpoint. The State tests are not designed to 
evaluate teachers.
    Your question about--I wanted to make a point about the 
evaluation system. There are three components, in terms of the 
overwhelming support that we got for it. It is, one, that the 
teachers were valued. We sat there for an entire year, side-by-
side, administrators and teachers, putting the system 
together--the teacher evaluation system, the principal 
evaluation system, the surveys, which we did extensively as 
well. And it emphasized top-to-bottom accountability. So 
everyone is buying in because they felt that it was important 
and that it is not just a matter of, ``We have to fix the 
teachers.'' Yes, we need to do--there is certainly a lot of 
improvement we need on our side, and we recognize that and we 
accept it. But in New Haven, they have also said, yeah, we have 
to look up and down the ladder, as well.
    And the last piece is the three components. The teacher 
evaluations shouldn't be merely test scores. Student learning 
is front and center, no question. In New Haven, it is roughly 
half. We don't like strict percentages on that. But, you know, 
the bottom line is that the kids have to learn; that is our 
job. But we also should be evaluated on things such as our 
instructional practices, classroom management, delivery of 
instruction, as well as our professional values.
    Mr. Hinojosa. Thank you.
    Chairman Kline. The gentleman's time has expired.
    Dr. Heck, you are recognized.
    Mr. Heck. Thank you, Mr. Chairman.
    And thank you all for being here and sharing your 
experiences.
    I represent the Clark County School District in Nevada, 
which is the fifth-largest school district in the nation. And 
we are certainly struggling with many of the same issues that 
you have faced. And I have learned a lot from reading through 
your testimony and hearing you today, and hopefully we will 
bring back some best practices for our district to take a look 
at.
    My undergraduate degree was in education, and I thought I 
was going to be a teacher until I did my student teaching. Then 
I realized that I needed something less stressful as a career, 
so I went into emergency medicine. And I still feel that that 
career is much less stressful than a career as a teacher.
    Mr. Huffman, in your testimony, you talked about the 
multiple evaluation parameters. And you had 15 percent of the 
evaluation determined by other student achievement metrics, 
selected through a joint decision by principals and individual 
teachers. Can you give some examples of what those other 
metrics were, how they were selected, and how they are actually 
measured?
    Mr. Huffman. Sure. So, for example, if you were teaching in 
high school, you might say, we are going to use AP exams, and 
we are going to see what the pass rate is or the percentage of 
students that are able to get a 3 on AP exams. Or you might 
say, ACT scores. Now all juniors across the State of Tennessee 
are taking the ACT, and so you might say, we are going to look 
at improvement in ACT scores.
    We are working with technical experts to figure out how to 
actually do the ranking of that and then how to compile it all 
back in, because I think that is one of the tricky pieces. It 
is actually tricky even outside of that. You get your value-
added score, and then you have your observation scores, and how 
do you combine it all so that it winds up with one number? So 
we have technical experts from higher ed that are helping us 
figure that piece out.
    Mr. Heck. Do you foresee using things other than other 
types of test scores for that 15 percent?
    Mr. Huffman. You could imagine using things that are 
different than test scores. But I think what is important to me 
is that there is some level of consistency in the scoring and 
that there is a range of distribution. What I don't want to see 
is that if you teach X subject compared to Y subject, it simply 
is easier to get a more positive evaluation. So we have to 
figure out how to make sure that the range of distribution is 
reasonable so that we are continuing to incent people to go 
into the range of subjects.
    Mr. Heck. Well, I know one of the concerns I have had, as 
my State legislature has tried to grapple with this issue, is 
too much of a reliance on test scores. You know, I know I am a 
great test-taker. And I know I can go back to high school shop 
class and get the manual on how to rebuild an engine, and you 
give me a written test tomorrow, I will ace it. But I guarantee 
you, I am not the guy you want rebuilding your engine, when it 
comes time to actually do the hands-on repair. And so that is 
the issue that we are struggling with, is that balance of where 
does testing fall in the overall scheme of teacher evaluation. 
So I appreciate that.
    Mr. Boasberg, one of your parameters is student perception. 
And you say, ``students know when they have a great teacher.'' 
I certainly agree with that. But I am sure that changes from 
when you are in 1st grade, what a great teacher means to you, 
then when you are in 12th grade. So how do you account for how 
students interpret what a great teacher is in that metric?
    Mr. Boasberg. So, I see those measures primarily at the 
secondary level, rather than the elementary level, I agree. And 
as a parent--my youngest will be in 1st grade, although I think 
he actually got a pretty good sense of who is a great teacher 
or not.
    But I do think that what we have seen nationally is that if 
you ask the right set of questions and not just, ``Is this 
person a nice person,'' but, ``Does this person challenge 
you,'' ``Does this person follow up with you,'' ``Does this 
person meet your individuals needs,'' ``Are the students on 
task in the classroom; do they begin work immediately,'' that 
you see a pretty high correlation in those results from student 
questions to student achievement.
    So this is primarily an issue for our secondary students. 
And I think the students do have a very good sense. As a 
student, I remember very well who my great teachers were, and I 
knew within a very short period of time who my great teachers 
were and which teachers weren't very good. And I think it is 
very important that we get that student voice, particularly at 
the secondary level.
    Mr. Heck. Thank you.
    And, Ms. Walsh, based on the presentations of the other 
three panelists, what do you feel the role is and how can the 
federal government help support teacher reform efforts without 
interfering in the effective practices at the State and local 
level?
    Ms. Walsh. I will answer your question; I just wanted to 
add, there is a study out by the Gates Foundation that shows 
that students' perceptions of their teachers correlate with the 
results as low as students in 4th grade. And they didn't do 
anyone lower than 4th grade, so it may correlate down even 
further. So it is rather--you know, students have 180 days to 
observe their teachers, and nobody else has that advantage, so 
it is something we should respect.
    In terms of the federal role, it is very complicated 
because, you know, this is a rather blunt instrument, and 
trying to tackle these issues is extremely tough, especially at 
this stage of their development. I know Mr. Miller was asking a 
somewhat similar question. And I think, at this point, we are 
very much in an experimental stage, with the great work these 
three gentleman are doing and in a lot of districts. So we 
don't have definitive answers that maybe would lead to federal 
policy at this point that was either you do or you don't.
    But I do think there is a role for federal government in 
the reporting requirements and in the carrot. I mean, I think 
that we found through Race to the Top that that carrot really 
encouraged States to make some important reforms. But, more 
importantly, you need to look at--Race to the Top is not 
offering any carrot right now, and there are still States that 
are very much embracing these new sets of reforms. So I think 
we can all feel very encouraged by the activity and momentum 
that we are seeing currently.
    So I think with reporting requirements and transparency and 
tying some strings to what carrots we have, I think that is 
what is most appropriate at this point.
    Mr. Heck. Great. Thank you.
    Thank you, Mr. Chairman.
    Chairman Kline. The gentleman's time has expired.
    Mr. Payne?
    Mr. Payne. Thank you very much.
    I really appreciate your testimony.
    I think that was an interesting question that the 
gentleman--or a statement he made, about the student perception 
of teachers, teachers that do well. I think also, though, that 
same concept of the teacher's perception of the student or 
students, I think, also tends to be important. Because we find 
that, in high-poverty areas, there may be a low expectation of 
the student and, therefore, the teacher teaches down. So I 
think the perception of the student to the teacher is probably 
even less important than the teacher's perception to the 
student, which people would tend to maybe teach down to.
    I just want to mention a couple of things just quickly. We 
know that poor, minority students are taught by novice and out-
of-field teachers at a much higher rate than their affluent 
peers. For example, in high-poverty secondary schools and those 
serving most minority students, more than one out of three core 
academic classes are taught by out-of-field teachers, compared 
to one out of five where the low-poverty students are. So you 
have less qualified teachers, as it is very clear.
    Additionally, children in the highest-poverty and high-
minority schools are assigned to novice teachers almost twice 
as often as children in low-poverty schools or schools without 
many minority students.
    And, finally, just to achieve true equity in education, 
federal, State, and local education policy must prioritize 
access to high-quality teachers for all students, including 
better measures of identifying high-quality teachers.
    Which, Ms. Walsh, brings me to a question. You noted in 
your written testimony that teachers are the single most 
important factor in determining the success of children in 
schools, which I agree with, although I think principals are 
certainly important, too, to lead the teachers. And In No Child 
Left Behind, one thing that was left out was principals. They 
just didn't deal with principals. It dealt with a lot of 
things, but not principals.
    And, of course, we mentioned about testing. And one of the 
gentlemen said he tested well. We know that with the high-
stakes testing, we have even seen our educational system 
unfortunately have teachers and schools changing scores because 
of the pressure of the----
    Ms. Walsh. Uh-huh.
    Mr. Payne [continuing]. High-stakes tests that I opposed in 
the--I think we need to evaluate students, there is no question 
about it. I mean, when I was a kid, many, many decades ago, you 
know, they evaluated students, so it is not new. I mean, you 
had a pass or you failed, and they had a way of grading you. 
But all of a sudden, you have high-stakes testing at 3rd grade 
and 6th grade, and kids are pushed into courses of learning to 
lead toward the test. And I am not so sure how much learning 
goes on when you teach toward the test.
    But, as you mentioned, Ms. Walsh, that all States should be 
developed to require a teacher quality index--agree. Yet you 
state that Title II funds should be competitive. Now, isn't 
that recommendation kind of counterintuitive? Because why is it 
better to provide such critical support for teacher evaluation 
systems and meaningful professional development only to a lucky 
few States or, in turn, to a lucky few schools or lucky 
teachers and students? You want to highlight what teachers are 
effective or ineffective in the State, but, you know--that is 
your testimony--you don't necessarily want to provide support 
to all States to improve the teaching force.
    So I think that transparency is certainly important in 
teacher quality, but transparency is really not enough. I think 
there needs to be a systematic change and systematic support to 
ensure equity. So I wonder about the competitiveness that you 
feel should be for Title II funds, which would eliminate many 
other schools that need it, probably even more.
    Ms. Walsh. I certainly understand and share your concerns 
about the States and districts that don't win such 
competitions, but I would ask you, what is the alternative we 
are facing? The alternative is we are currently spending some 
$3 billion a year on something that the taxpayer and those 
children in the classrooms are seeing far too little as a 
result of that investment.
    So I think the alternative here has not proven effective, 
the status quo. So we are looking for ways that we can use that 
same pot of money without depriving children of the investment 
that they would entail, but to use it more effectively and lead 
to much stronger results.
    Chairman Kline. The gentleman's time has expired.
    Mr. Thompson?
    Mr. Thompson. Thank you, Chairman.
    Thanks to the panel for being here.
    I appreciate the conversation and a lot of zeroing in on 
teacher evaluation and, obviously, what we do with that to 
develop all teachers into highly effective teachers.
    I want to back up a little bit. I know in my career--I came 
out of health care, and as I was a manager within hospitals, 
frankly, the best time we invested was hiring right, because 
you avoid so many problems. And, frankly, once you get 
somebody, when you don't hire right--and everybody is kind of, 
for the most part, smiling and shaking your heads; you 
understand the consequences of not hiring right to begin with.
    So I just want to throw this out to begin with. Is there a 
best practice that you have identified--I want to open this up 
to the panel; if you could be succinct, I have a couple 
questions--that is a best practice for making sure that we are 
hiring truly highly effective teachers? I don't think it is 
important whether they are novice or new or veterans or how 
many years of service. We just want the right people, and that 
is the highly effective ones.
    So, if you could start, please.
    Mr. Huffman. I will just jump in quickly and say I really 
appreciate the question, because as I have started my role as 
commissioner, this is something that I am really grappling 
with. I completely agree with your point, that if you hire the 
right people in the door in the first place, it solves so many 
problems.
    One of the things I have seen in my travels around the 
State is that a lot of the hiring is effectiveness-blind, and 
it is done based on historical patterns of hiring. So people 
tend to hire from the higher-ed institution that is 
geographically closest to the school district, and people are 
hiring without rubrics that are tied to effectiveness.
    I mean, I do think there is a tie to teacher evaluation, in 
the sense that it allows us to collect more data that we can 
tie back to characteristics of people and hopefully help 
develop rubrics that we can give to districts that will help 
them understand what are the attributes of teachers most likely 
to perform effectively when they are in the classroom, because 
I think that is what we have to be doing. But right now, the 
system is not where it needs to be.
    Mr. Boasberg. I think that--a couple things. One is to make 
sure, as a district, we have multiple sources we are hiring 
from. We don't want a situation where we are effectively hiring 
from only one source. So we not only hire from colleges of 
education, we have programs like Teach For America, we have a 
residency program, we have a mid-career program called the 
Denver Teaching Fellows. Because you want multiple applicants 
to choose from to be able to choose the best applicants.
    Second, we are very decentralized. We have principals and 
teachers who, in that building, as a personnel selection 
committee, interview the specific teachers. And decisions are 
made at the school level. We don't do district-based hiring 
assignments. We want that one-on-one contact and professional 
judgment of the principal in the school.
    Thirdly, I think it is really seeing someone teach. This is 
a profession--and paper qualifications are great, but it is 
really about how you do in the classroom.
    And, fourthly, I would add, while I strongly agree that 
hiring the best possible people is vital, in any profession 
sometimes you make hiring decisions that don't turn out great 
or maybe were good at the time but over time is not a great 
fit. And I do think, while we need to focus on our hiring, we 
also need to recognize that some of the systems that we have 
about replacing low performers certainly need to be changed as 
well.
    Mr. Cicarella. I just might echo some of the same things; 
that the paper resume is nice, but we can all put those 
together. And interviews, we all get trained on interviews and 
do a nice job in front of the, you know--but--so we do need, I 
think, in particular, to be sure that these people have kind of 
been field-tested. I mean, student teaching is supposed to do 
that, and it does to a certain degree, but, you know, a little 
bit more than that. Because we do need to see them in action. 
And many school districts are doing that now. You have to come 
in and do a lesson in one of the schools before you are hired, 
as a requirement to be hired.
    My only other comment I will make quickly is that I 
appreciate your comment about whether it is new or old. 
Sometimes reference is made that the newer teachers--I mean, we 
have new teachers that are very effective, that are terrific. 
They bring lots of energy. They are inexperienced, but they 
more than make up for that in some other areas. Not every 
veteran teacher is tired and worn-out. I mean, colleagues of 
mine, teaching 25, 30 years, they have just as much energy. 
They are in there, 6:30 in the morning, 7 o'clock, with the 
young ones. So years of service, that is really nothing to look 
at.
    So I agree with you that when we are doing hiring, we don't 
want to necessarily say, ``Well, we better make sure we have 
young teachers,'' or, ``We better get some veteran teachers.'' 
The best school systems have a mix of both. The new people 
bring energy and new ideas. Our veterans have a lot of 
experience that we can rely on. And the best school system will 
have a mix of the two, and we don't want to preclude one from 
another.
    Chairman Kline. The gentleman's time has expired.
    Ms. Davis?
    Mrs. Davis. Thank you, Mr. Chairman.
    Thank you all for being here. I really appreciate your 
testimony. I am trying to do double duty, but I did hear from 
all of you and read your testimony.
    And I was particularly interested--for one thing, I 
actually did introduce a bill, it is called the STELLAR Act. I 
hope you will take a look at that, in terms of evaluations that 
are tied into, I think, one of the issues that you particularly 
addressed, Ms. Walsh, Title I. So I would like to ask you about 
that.
    But first, Mr. Cicarella, buy-in is just a tough issue. I 
am from San Diego, California. And I think that there have been 
enough instances within, I think, most school districts where 
it has been tough to get that at a level where people really 
believe that the people doing the evaluations are going to be 
skilled enough to be able to really assist and promote 
professionalism as opposed to just doing something to teachers. 
And it is something you obviously grappled with.
    Is there anything else you could share with us in terms of 
getting that buy-in particularly, and how you worked hand-in-
glove, essentially, with making certain that the observers, I 
think as you called them, were adequately trained in the eyes 
of teachers to actually do that? Were most of the teachers also 
mentor-teachers, nationally board-certified teachers? Where did 
you find those observers, from the existing ranks? Or did 
people, retired principals, teachers come in? How did you do 
that?
    Mr. Cicarella. Yeah, that was a big concern of ours, is 
that we have a new evaluation system which will be 
consequential for some, and we recognized that. But we wanted 
to make sure that it was done fairly and that teachers weren't 
scapegoated and a finger was pointed at them perhaps by an 
administrator that is not a good instructional leader, does a 
no-good evaluation, you know, ``The school is not conducive to 
learning.''
    So one of the pieces we put in, we put a third-party 
validation in, where we have the outside observers come in. And 
that we agreed to with the school district. And they are a 
combination: They are sitting superintendents; some are 
retired. Principals, again, some active, some retired. None of 
them from New Haven; they are all from other districts 
throughout the State. And they would come in.
    So one of the protections the teachers felt was that there 
is going to be someone else. Until we get to that point where 
we have confidence in the administrator's ability to fairly 
evaluate--New Haven, we have pretty much a mixed bag. We have 
some administrators who are absolutely terrific. They can be an 
administrator anywhere in this country. On the other end of the 
spectrum, we have some, quite frankly, that shouldn't be in the 
principal's chair. And that was our concern.
    So to get the buy-in that you are talking about from the 
teachers, we put in a third-party validation system. I can 
speak to you more about it; I know time doesn't permit it.
    Mrs. Davis. Uh-huh. Okay.
    Mr. Cicarella. But those folks come in, and they are 
observed by both the principal or assistant principal and this 
third party, this outside validator, who was interviewed by the 
teachers' union and the school district and we agreed upon 
them.
    And these people had excellent track records of evaluation 
and of handling staff. And we had to agree to each one. So when 
we interviewed them, you know, we would say, ``This one. Nope, 
not this one. This one. Yes, this one is okay.'' So, at the end 
of the day, we have a cadre validators, third-party validators, 
that we all have complete confidence in.
    Mrs. Davis. Uh-huh. Thank you. I appreciate it.
    I think one of the things that we are searching for and 
something that would be carried if we go in this direction--and 
I think I heard from everybody that you do see a federal role 
here--is to allow--you know, it is definitely not a one-size-
fits-all, but it is the process that school districts would go 
through over a period of time, even up to 5 years, that would 
provide this kind of a setting so that they can do the 
appropriate work of getting this together. That may or may not 
be too long, I am not sure.
    Ms. Walsh, when you talked in your testimony about Title I 
funds being essentially tied to quality data, and we know that 
those systems are very important, could you expand a little bit 
more on that and why you think that that would be essential as 
we move to having, I would hope, more evaluations throughout 
the country?
    Ms. Walsh. I just want to make sure--a correction, that I 
was talking about Title II funding and the $3 billion, money 
that goes toward--largely, it is being spent to reduce class 
size and for professional development.
    And I think both parties have been a little bit disturbed 
by the lack of results that have come from that annual 
investment and have grappled with ways to make it more 
effective. So we think that it is an opportunity to use that 
money as a carrot to hold out to districts and States, saying, 
``Look, we need to do things a little bit differently here. We 
need to move toward an evaluation system, that all teachers are 
being evaluated fairly and reliably but annually.'' So we think 
that there is an opportunity here to use that money much more 
productively.
    Mrs. Davis. Uh-huh.
    Mr. Boasberg. Could I add a word about the federal role?
    Chairman Kline. I am sorry, the gentlelady's time has 
expired. We will try to work that in.
    Mr. Tierney?
    Mr. Tierney. Thank you very much.
    Can any of you speak a little bit to whether or not we 
should have an expectation of our higher education institutions 
for that period of time after they give out the BA or the BS to 
somebody that goes in the teaching profession and what that 
responsibility might be?
    Ms. Walsh. I am sorry, I didn't--would you restate your 
question, please?
    Mr. Tierney. Usually, they flip the ball to you, and you 
hadn't even heard the question. They are all just shuffling it 
down.
    Should we have an expectation for higher education 
institutions that produce teachers----
    Ms. Walsh. Oh.
    Mr. Tierney [continuing]. Beyond the time that they give 
you your degree? And what is that expectation that we should 
have?
    Ms. Walsh. I mean, we certainly struggle with that issue. 
There are some education schools that have said, you know, if 
you are dissatisfied with our product, we will, at our own 
expense, retrain or re-prepare that teacher. And then there are 
also, on a much broader scale, there is an effort nationwide to 
look at the value-add of teacher graduates once they leave an 
institution and how much they contribute to the performance in 
a classroom. So we know that teachers from one institution are 
more effective than another. I know Tennessee has been a 
pioneer in that effort.
    There are some limitations. It is not something we can do 
very easily. But, currently, there are only three States in the 
country that allow us to do that. But even when we do have all 
50 States providing that kind of data, it will not ever tell 
us, well, what is it that education schools are doing right or 
wrong?
    Mr. Tierney. Well, is--and, also, thinking along the line, 
regardless of whether or not a particular institution that 
might be located in a particular geographic area graduated that 
teacher, might they not have some responsibility with the 
community in which they are located to support that teacher?
    You know, particularly, we have these instances where a lot 
of the students that are high-poverty and high-risk are getting 
teachers that are newer, often less experienced, and sometimes 
teaching out of subject. So is there something that can happen 
there, where those institutions work with the community and 
support those teachers to help improve their performance?
    Ms. Walsh. There is a great deal of interest on the part of 
institutions becoming more involved in the clinical practice 
and in real schools. That is a change that we have seen happen, 
and I think that is all great.
    I would just think that we need to attend also to this the 
basic needs of new teachers, and are they coming out of an 
education school with the basic credentials--not credentials, 
but work that they should have done before they go into 
classrooms?
    Do you realize that there are over a million children a 
year assigned to first-year teachers? And if you look at the 
contribution of first-year teachers to student growth, it is 
not good. Students lose ground consistently under first-year 
teachers. So we know that children who are in high-poverty 
schools where there is a lot of turnover have more of those 
first-year teachers.
    It doesn't need to be that way. We have seen programs that 
have delivered teachers well-prepared into schools on day one. 
And they do not lose ground; they make up--they make progress.
    Mr. Tierney. And going along with your point earlier about 
a lot of students feeling that they can get into an education 
program because it is easier to get accepted and easier to 
complete, what would be the change in that if we paid teachers 
at a level, say, that we pay police officers? In our 
communities, when they publish the income of public employees, 
the police officers are always the first 10, 12, 20 positions 
on that, or other people in that category.
    What if we paid our teachers like that, so that people 
knew, if they graduated and did well in a teaching job, they 
would make that kind of money and might want to sustain it as a 
career? Do you think that would have a positive impact?
    Ms. Walsh. I think it is absolutely critical. I think one 
of the reasons we are not attracting the best and the brightest 
into the teaching profession is because they are in college and 
they look at their future careers and they know exactly how 
much they will earn in 25 years if they go to work in the 
school district, adjusted for inflation. That is not a 
incentive to most 21-year-olds.
    We have to make it possible for young individuals, college 
graduates, to say, you know, ``If I am really good at this job, 
I am going to make a very nice income. It is all going to 
depend on my contributing talent and skill.''
    Mr. Tierney. Thank you.
    I yield back, Mr. Chairman.
    Chairman Kline. Thank the gentleman.
    Mr. Holt.
    Mr. Holt. Thank you.
    Well, I won't pursue Mr. Tierney's line of questioning 
except just to comment that in my own State, where we have the 
top public official in the State insulting teachers and telling 
them that they are getting too much in health benefits and 
pension, it is not leading too many people in that profession.
    Two very different questions. First, looking at science and 
math education--I am not sure who I am directing this to, 
probably Ms. Walsh--but we used to have the Eisenhower funds, 
which provided something on the order of $400 million a year to 
teachers all over the country for professional development, 
mostly in science and math. That was turned into Science and 
Math Partnerships, funded at about a third of what Eisenhower 
funds had been. And now those funds, this administration has 
proposed be pooled with all sorts of other things.
    So there is nothing nationally available that is 
specifically for science and math teacher professional 
development. What is the strategy that we should be using? Is 
there any different strategy that we should be using for the 
professional development of science and math teachers? I am 
using this term kind of broadly, the STEM areas. And maybe 
others would have comments on that.
    Teach For America seems to be bringing a lot of science 
majors into teaching, at least temporarily; and they do have 
some different training, I believe, for the students who are 
doing that.
    Well, let me let you talk.
    Ms. Walsh. Well, you know, it is such an important 
question, and we get asked it a lot. And I am just going to be 
honest with you, I find it a little frustrating. Because, in 
terms of professional development for science and math 
teachers, right now, if you are an elementary teacher, it is 
too often the case where people say, well, I am an elementary 
teacher because I am not any good at math. And yet they are the 
first teachers of our students in mathematics.
    We know what preparation elementary teachers do need to be 
effective in the classroom. We know exactly what they should be 
learning. But, nevertheless, across the country, if you look at 
what kind of preparation teachers are getting in mathematics, 
it is all over the map. There are programs that provide no 
courses. There are programs that provide any courses. There is 
no consensus.
    So I think the best thing the U.S. Congress could do is to 
look to the State of Massachusetts, which is the only State in 
the United States which is currently requiring its elementary 
teachers to pass a rigorous test in mathematics. There are a 
lot of States that require any test, but there is only one 
State that is making real progress.
    So rather than try to get--I just think that this testing 
issue is the easiest way to reshape the practices and policies 
of States. So I just think it is ultimately very important, and 
I don't think that we should burden school districts with the 
job of providing the content preparation that should have 
happened before teachers arrive in their school districts.
    Mr. Holt. Would the other witnesses--Mr. Cicarella, please?
    Mr. Cicarella. Yes, perhaps two comments.
    On science and math, I referenced earlier that teachers 
don't become teachers to make money. But there is such a 
disparity between what the folks can make on the outside. I was 
a math major. I can make a lot more money on the outside than 
teaching. I chose to do it, and many of us do, but that is a 
difficult one. And not that money is always the answer, but 
that is part of the problem we have. There is such a disparity 
in the salaries, if you have a math or science degree, on the 
outside as opposed to education.
    And then the only comment I want to mention about Teach for 
America, they are a terrific organization. My daughter is a TFA 
person, so I very much like those kids. They are bright, they 
are driven, they work hard. But in terms of training, they have 
no special training. Quite frankly, it is just simply a crash 
course. I can speak firsthand. My daughter went through it. 
They come from outstanding colleges. My daughter was a Boston 
University graduate.
    Mr. Holt. Yeah, more than 15 percent of the graduating 
class at Princeton University applied for Teach for America.
    Mr. Cicarella. Yeah. But their training is one summer. They 
have one summer of training, and they have some follow-up work 
with their folks. So they are not doing anything special with 
math and science. That is a good organization, they do good 
work, but they are not helping us with the math and science 
problem.
    Chairman Kline. The gentleman's time has expired. Ms. 
Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman.
    One of my biggest concerns for a long time with our public 
education system and with evaluating teachers fairly to see how 
well they are doing is that many classrooms, many districts, 
many cities in general provide teachers with kids that aren't 
ready to learn in the first place. They come to school 
insecure. Their homes are not safe. Possibly they may not even 
have a home. They may be moving every 6 months. They are hungry 
quite often. Sometimes they don't have medical care.
    How in the world can we evaluate teachers--so this is a 
question to all of you. How would you take this into account 
when teachers are evaluated? How do we measure a teacher's 
progress when that teacher is provided a classroom of kids that 
are in real need?
    Mr. Huffman. I will jump in.
    So while it is absolutely true, everything that you said, 
that kids come to school with very different needs and that 
those needs impact then the classroom environment, excellent 
teachers are able to advance learning with kids regardless of 
the challenges that they are bringing to school. We see that 
again and again.
    Ms. Woolsey. Excuse me, one kid at a time. What if they get 
a classroom of half the kids in the class move every 6 months 
or they have got 13 different languages in the classroom? One 
excellent teacher is going to be able to balance all of that 
without any help from us?
    Mr. Huffman. I think there is a difference when you talk 
about measurement between moving, in which case you have a 
measurement challenge between----
    Ms. Woolsey. All right. I am talking about what that does 
to the kids. So I am not talking about--okay.
    Mr. Huffman. I personally believe, yes, we see it all the 
time. So it is not accidental, again, that the Teach for 
America teachers are actually outperforming other teachers, 
even though they have the toughest classrooms. Part of that is 
because we are doing value-added. So we are not just saying, 
where do you wind up at the end of the year? We are saying, how 
far do you advance your kids over the course of the year? So is 
it hard work? Yes. But, on the other hand, we only want people 
in classrooms serving high-need kids who believe they have the 
locus of control to move those kids' student achievement.
    Mr. Boasberg. Maybe I could speak to Colorado. In Colorado, 
we measure growth as well. Last year, of the five schools in 
the whole State of Colorado, 2,000 schools, that grew the most, 
four were in Denver. Three of those schools, the student body 
were more than 90 percent of those students came from families 
in poverty. We have too many schools that perform 
extraordinarily well with students who come from families in 
poverty. So I have seen it done in classroom after classroom, 
in school after school.
    Is it challenging? Yes. But the alternative, that somehow 
we do not evaluate, do not have accountability for our teachers 
who teach our highest-need students, to me is a far more 
concerning alternative.
    Ms. Woolsey. Absolutely. So let's go on to you, Mr. 
Cicarella. Tell us, I am sure, building on what these two 
gentlemen said, what do we do? Why are those classrooms able to 
make up that difference? What do we provide?
    Mr. Cicarella. You are right. I mean, the extenuating 
circumstances do count. While I agree excellent teachers make a 
difference, I am going to disagree that if you are an excellent 
teacher you are going to overcome all these impediments. Kids 
don't come to school. You can't teach them. You can't teach an 
empty chair. Some of them have so many severe problems--we 
don't need to go into those--that the last thing on their 
mind--I taught algebra and I taught reading in eighth grade. 
That kid could care less about my polynomial lesson when he has 
got all kinds of things going on at home. That is just the 
reality of it.
    I prepare my lessons diligently, I care about them, and I 
do the best can. But if they are not engaged and if they have 
so many things facing them, they are just not going to be--no 
one is going to break through that.
    So to your question as to what do you about it, we do need 
to look at the legitimate reasons. And so the wraparound 
services are really important. That is part of what we have for 
school reform in New Haven, is that we have to address those 
issues. Because you can be the best teacher in the world, as I 
said, but, again, some of those impediments are so severe that 
no one is going to break through those.
    Ms. Woolsey. Okay. Thank you.
    Ms. Walsh, you have just a little bit of time.
    Ms. Walsh. I think that they have spoken well to this 
issue. I do think the question before us is what is our 
alternative.
    Ms. Woolsey. No, I am not suggesting we don't do it. I am 
suggesting it will be an investment that has to be made. 
Otherwise, we will be leaving groups of kids out and/or 
evaluating teachers on something that is quite impossible. So 
we need a lot of help in that regard. Thank you.
    Thank you, Mr. Chairman.
    Chairman Kline. I thank the gentlelady. Her time has 
expired.
    I want to again thank the witnesses for being here, for 
excellent testimony, and really being engaged in the questions 
and answers.
    I am going to recognize Mr. Miller for his closing remarks. 
And, by agreement, he is going to roll at least one more 
question into those remarks. So stand by. Mr. Miller.
    Mr. Miller. I just have kind of a general observation. I 
appreciate your observation on the observation.
    Mr. Boasberg--I think I got it right--yeah, this is yours.
    Mr. Boasberg. It is, yes.
    Mr. Miller. On the teacher and student behaviors and 
teacher behaviors and on the learning behaviors, on those parts 
of the graphs, you have for a distinguished teacher the 
students are observed pursuing their own strategies and ideas, 
students are observed supporting each other, and persevering 
and solving problems. Students are observed encouraging each 
other to work harder.
    You have here for students, student mediate diverse 
opinions or approaches and devise their own. Students approach 
tasks and responses in highly original and applied ways. 
Students are creative problem solvers and think about systems, 
not just isolated parts.
    Most teachers would tell me that this is all inconsistent 
with teaching to the test. I assume you still have annual 
tests?
    Mr. Boasberg. We do. So thank you for the observation, and 
I appreciate you bringing it up.
    If I could respond, I don't see there is any inconsistency 
at all. I think that all of us in the community care very 
deeply can our students learn to read, write, and do math. To 
me, that is just the threshold that all of our students need in 
order to contribute to our society and have jobs. And I think 
those tasks do measure that. Those are important to our 
students. Can they learn to read, write, and do math?
    At the same time, our schools all have real aspirations to 
prepare our kids for the 21st century, to be good citizens, to 
be problem solvers, to be innovative, to be creative; and we 
care very deeply about those things. That is what our parents 
tell us.
    In Colorado, it is a school choice State. As a parent, you 
can send your child to any school anywhere in the State so long 
as there is room. We need to be able to make sure that we are 
offering to our students rich classrooms that really develop 
the whole child, and I see absolutely no inconsistency at all. 
In fact, what we see when we have teachers who are developing 
those higher order thinking skills, the problem solving skills, 
the creativity, innovation, collaboration, that students are 
taking command of their own learning, being original. They are 
the ones who are scoring best on reading, writing, and math.
    So, in our experience, there has been absolutely no 
inconsistency with caring deeply about students to be able to 
read, write, and do math and, at the same time, caring deeply 
about the whole child and fostering the critical thinking, the 
creativity, the innovation skills that I as a parent care so 
deeply about, and all of our parents care very deeply about.
    Mr. Miller. Anyone else?
    Mr. Huffman. I would just agree. I don't think teaching to 
the test works in advancing test scores the way people think. I 
think that it is actually the mediocre teacher that teaches to 
the test, and it is the strong teacher that teaches a robust 
set of skills that winds up being demonstrated in advanced test 
results.
    Mr. Miller. I probably have been an outlier in that I 
insisted for a long time that it was an excuse and not a 
result. I am very encouraged that we would consider these 
attributes in evaluation. Because I think these attributes 
mirror a modern workplace much more so than most schoolrooms 
and where students do collaborate, where workers collaborate, 
where people work across grades or work across schools or get 
together with other schools and start to figure out solutions, 
as opposed to the right fact. The facts are on Google. The 
question is, can you pull them together and come up with a 
solution to what may be complex in fourth grade or seventh 
grade or eighth grade and can you do it with others? I think 
that tells us more about getting people ready for a modern 
economy and modern democracy, if you will. So I appreciate 
that. Thank you very much.
    Thank you very much for all your testimony this morning.
    Chairman Kline. I thank the gentleman and identify myself 
with all of his closing remarks.
    Mr. Miller. You heard it here first.
    Chairman Kline. You heard it here first.
    Mr. Miller. Probably never again.
    Chairman Kline. Maybe, maybe never again.
    Mr. Miller. The gentleman gets the right to revise and 
extend his remarks.
    Chairman Kline. In this case, I won't. I do agree. I am 
heartened by what we have heard here today. I think you are 
making fantastic progress. We are going to continue to grapple 
with our role, with Washington's role in what you are doing. I 
can tell you that, as a very minimum, we want to make sure that 
you are able to continue with what you are doing and the 
successes that we are seeing.
    Again, as I said earlier, your testimony is fantastic. You 
have been very involved and engaging witnesses. I thank you for 
that.
    There being no further business, the committee stands 
adjourned.
    [Whereupon, at 12:13 p.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
